<html>
<title> - MISCELLANEOUS NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 107-204]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-204

                   MISCELLANEOUS NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 423                                S. 1105

                           S. 941                                H.R. 640

                           S. 1057


                                     
                               __________

                             JULY 26, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
76-718                     WASHINGTON : 2001


____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman
BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
BOB GRAHAM, Florida                  BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CONRAD BURNS, Montana
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           PETE V. DOMENICI, New Mexico

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                          John Watts, Counsel
                       Jeff Mow, Bevinetto Fellow


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Arnold, Ron, Director, Wyoming Office of State Lands and 
  Investments, Cheyenne, WY......................................    29
Baird, Hon. Brian, U.S. Representative from Washington...........     6
Eshoo, Hon. Anna G., U.S. Representative from California.........     5
Feinstein, Hon. Dianne, U.S. Senator from California.............     2
Lantos, Hon. Tom, U.S. Representative from California............     3
Leslie, Wayne, Kealakekua, HI....................................    27
Medeiros, Jim, Sr., Honaunau, HI.................................    25
Reynolds, John J., Regional Director, Pacific West Region, 
  National Park Service, Department of the Interior, Oakland, CA, 
  accompanied by Chris Powell, Superintendent, Golden Gate 
  National Recreation Area.......................................     9
Rust, Audrey C., President, Peninsula Open Space Trust, Menlo 
  Park, CA.......................................................    32
Smith, Hon. Gordon, U.S. Senator from Oregon.....................     8
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Wu, Hon. David, U.S. Representative from Oregon..................    23
Wyden, Hon. Ron, U.S. Senator from Oregon........................    10

                                APPENDIX

Additional material submitted for the record.....................    39

 
                   MISCELLANEOUS NATIONAL PARKS BILLS

                              ----------                              


                        THURSDAY, JULY 26, 2001

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:48 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. The chairman is held up for a little while. 
I know some of you have commitments. We will go ahead and get 
started, and I am sure he will be here soon.
    Today, we will hear testimony on five legislative bills 
regarding the National Park Service. Four of the bills adjust 
boundaries and the fifth bill proposes an exchange to reduce 
the number of inholdings in Grand Teton National Park.
    I have introduced S. 1105, along with Senator Enzi, to 
expedite the acquisition of State-owned inholdings within Grand 
Teton Park. This legislation ensures that school trustlands 
within the park will not be developed. In the past few years, 
the State of Wyoming has become more aggressive in trying to 
raise funds for their school trustlands.
    Needless to say, the location of the school trustlands 
within the park and being in close proximity to Jackson makes 
them attractive, so we are hopeful that we can make an exchange 
so there will not be the inholdings, the park can be better 
managed, and the school sections will bring income back to the 
schools.
    In addition, since 1972, Congress has appropriated over $93 
million of land acquisition to the Golden Gate Recreation Area. 
In the 106th Congress we added an additional 105 acres to the 
park at a cost of $3.5 million. This brings the total cost of 
lands remaining to be acquired at $66 million.
    Today, we are hearing testimony on authorizing an 
additional acreage at a cost of $15 million. The National Park 
Service has many land acquisition priorities. We need to ensure 
that we do not tie up our commitments in one park unit.
    There are also concerns about the north boundary of the 
Golden Gate National Recreation Area. About 8 miles along 
Highway 1, both local residents and businesses are continually 
confused by signs on one side which read, Point Reyes National 
Seashore. The sign on the other side reads, Golden Gate 
National Recreation Area. Perhaps we ought to take a look at 
those boundaries while we are looking at this bill.
    Also, there are concerns about the amount of private land 
within the boundaries of the Santa Monica Mountains National 
Recreation Area. The situation here is that there are entire 
neighborhoods and housing subdivisions within the boundary. We 
are going to take a look at how we handle those subdivisions in 
the recreation area.
    So thank all of you for being here, and we will go ahead 
and move--if you have no objection, Congressman Lantos, we will 
just start and move right down.
    [A prepared statement from Senator Feinstein follows:]
       Prepared Statement of Hon. Dianne Feinstein, U.S. Senator 
                            From California
    Today, I am pleased to testify in support of legislation to add 
approximately 5,000 acres of land to the Golden Gate National 
Recreation Area in San Mateo County, and 3,700 acres to the Santa 
Monica Mountains National Recreation Area in Ventura County, 
California.
    Both of these bills would help protect pristine natural land that 
is critical habitat for various plant and animal species, and provide 
outdoor recreational opportunities for millions of people.
    The Golden Gate Recreational Area property to be added is one of 
the most visible and important pieces of land on the San Mateo coast 
north of Half Moon Bay. The largest parcel to be added is a 4,262 acre 
stretch of land known as the Rancho Corral de Tierra. The Rancho Corral 
de Tierra is one of the largest undeveloped tracts remaining on the San 
Mateo Coast and is constantly under threat of development.
    The mountainous property, which surrounds the coastal towns of Moss 
Beach and Montara, was previously purchased by the Peninsula Open Space 
Trust. The Trust has agreed to transfer the land for $30 million. The 
Federal Government's share would be roughly $15 million. It is this 
type of public-private partnership that Congress needs to support in 
our efforts to preserve open space.
    The ``Rancho Corral de Tierra Golden Gate National Recreation Area 
Boundary Act of 2001'' has the support of the entire Bay Area 
Congressional Delegation. Similar legislation is being introduced today 
in the House of Representatives by Tom Lantos with co-sponsors Anna 
Eshoo, Nancy Pelosi, George Miller, Lynn Woolsey, Ellen Tauscher, Pete 
Stark, Mike Thompson, Barbara Lee, Mike Honda, and Zoe Lofgren.
    The addition of the Rancho Corral de Tierra property will result in 
the protection of all or part of four watersheds, and several 
endangered species such as the peregrine falcon, San Bruno elfin 
butterfly, San Francisco garter snake, and the red-legged frog. 
Moreover, due to the coastal marine influence and dramatic altitude 
changes, plants grow on the property that are found nowhere else in the 
world.
    This legislation will also reauthorize the Golden Gate National 
Recreation Area and Point Reyes National Seashore Advisory Commission 
for another 20 years. The Advisory Commission was established by 
Congress in 1972 to provide for the free exchange of ideas between the 
National Park Service and the public. The Commission holds open and 
accessible public meetings monthly at which the public has an 
opportunity to comment on park-related issues.
    The Santa Monica Mountains Recreation Area stretches from West 
Hollywood in California's Los Angeles County to Point Mugu in Ventura 
County. This is the largest urban unit of the National Park System, 
comprising more than 150,000 acres. It is home to a number of natural 
communities ranging from freshwater wetlands to oak woodlands. It is a 
critical haven for more than 450 species of animals, including the 
bobcat and golden eagle.
    Congressman Elton Gallegly's bill (H.R. 640) will add 3,700 acres 
of donated public and private lands to the National Recreation Area at 
no cost to the taxpayer. The 3,700 acres represent the last remaining 
open space parcels connecting the Santa Monica Mountains and Simi Hills 
across U.S. Highway 101. Protecting this corridor will promote greater 
ecosystem health and biodiversity in the region, particularly for 
larger mammals such as badgers, bobcats, and mountain lions.
    I have always felt that protecting our nation's unique natural 
areas should be one of our highest priorities. The Golden Gate National 
Recreation Area and the Santa Monica Mountains Recreation Area are two 
of our nation's most heavily visited urban national parks, in close 
proximity to millions of people. I hope that members of the 
Subcommittee on National Parks will join me in supporting these park 
boundary adjustments. I would emphasize, Mr. Chairman, that all 
transactions are between willing sellers and willing buyers, so I see 
no reason why the Committee cannot report these measures expeditiously. 
Thank you for allowing me to testify.

                 STATEMENT OF HON. TOM LANTOS, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Mr. Lantos. Well, Mr. Chairman, thank you very much for 
holding this hearing, and I am delighted that I am accompanied 
by my friend, colleague, and neighbor, Congresswoman Anna 
Eshoo, who has been one of the leaders in the field of adding 
spectacular pieces of California property to our perpetual 
legacy that we leave for our children and our grandchildren, 
and Audrey Rust, who is the president of the Peninsula Open 
Space Trust, and under whose leadership the Peninsula Open 
Space Trust has been responsible for the protection of 
thousands of acres of land on the San Francisco peninsula, and 
has been pivotal in bringing us to the point where we are with 
respect to this acquisition.
    With your permission, I would like to submit my prepared 
statement and just summarize my observations.
    Senator Thomas. It will be included fully in the record.
    Mr. Lantos. I appreciate that, Mr. Chairman.
    This GGNRA Boundary Adjustment Act of 2001 comprises three 
major parcels of approximately 5,000 acres. I brought you, Mr. 
Chairman, a set of photos that I would like to present to you.
    Senator Thomas. Thank you.
    Mr. Lantos. And as you look at them I think you will 
probably agree with me that one's soul soars when one sees the 
spectacular vistas.
    Our legislation will be financed through a remarkable 
public-private partnership, 50 percent Federal funding, 50 
percent private and State funding. It is unanimously supported 
not only by the congressional delegation of northern 
California, both of our U.S. Senators, the county board of 
supervisors, and a range of organizations much too long to 
repeat.
    Our legislation will protect four sensitive watersheds 
containing steelhead trout, coho salmon, and others. We protect 
rare and endangered plant and animal species. We protect 
against development along this spectacular scenic California 
coastline, and it provides recreational opportunities not only 
for the millions of citizens of the San Francisco Bay Area, but 
to the millions of our fellow citizens from all over the United 
States, and literally millions of visitors from all over the 
world.
    I earnestly hope that this legislation will be expedited, 
and I am deeply grateful for your time. I would like to turn 
the microphone over to my friend, Anna Eshoo.
    [The prepared statement of Mr. Lantos follows:]

                Prepared Statement of Hon. Tom Lantos, 
                  U.S. Representative From California

    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to appear before your subcommittee today. I am most 
grateful that your subcommittee is holding hearings today on S. 941, 
the ``Rancho Corral de Tierra Golden Gate National Recreation Area 
Boundary Adjustment Act of 2001''. I am the principal sponsor of the 
companion legislation to S. 941 in the U.S. House of Representatives 
(H.R. 1953). S. 941 will add over 5,000 acres of pristine natural land 
to the Golden Gate National Recreation Area (GGNRA), one of our 
nation's most visited national parks. The legislation is sponsored by 
both California Senators Dianne Feinstein and Barbara Boxer and has the 
strong and enthusiastic support of the entire Bay Area Congressional 
Delegation.
    Mr. Chairman, the GGNRA is a true national treasure. It provides 
open space and recreation in the midst of a densely populated urban 
area and it is one of our Nation's most heavily used national parks. S. 
941 would adjust the boundary of the GGNRA to permit the inclusion of 
lands directly adjacent to existing parkland as well as nearby lands 
along the Pacific Ocean. The upper parcels of land offer spectacular 
vistas, sweeping coastal and bay views and stunning headland scenery. 
Inclusion of these lands would also protect the important habitats of 
several species of rare or endangered plants and animals.
    The new additions to the GGNRA will be accessible to more than 6 
million people who live within a one hour's drive of the park and will 
provide national park programs and experiences to millions of national 
and international visitors. The dramatic ascent of Montara Mountain 
from the sea, 2,000 feet in just over 1 mile, is a spectacular sight 
not duplicated anywhere else in the Park and in few other places on the 
California coast. And we can accomplish permanent protection of these 
lands through a tripartite partnership involving Federal, State and 
private contributions.

                 THREE IMPORTANT NEW ADDITIONS TO GGNRA

    The Rancho Corral de Tierra Golden Gate National Recreation Area 
Boundary Adjustment Act of 2001 contains three important additions to 
the GGNRA. The largest parcel, the Rancho Corral de Tierra addition is 
one of the largest undeveloped parcels on the San Mateo coast. It is 
comprised of the four main peaks of Montara Mountain rising 2,000 feet 
from sea level. This 4,262-acre property includes a panorama of amazing 
views, important watersheds, miles of public trails, and an incredible 
array of wildlife and plantlife. The Rancho Corral de Tierra shares 
three miles of boundary with the GGNRA. Its relatively untouched upper 
elevations preserve rare habitat for several threatened and endangered 
plant and animal species. The property also contains four important 
coastal watersheds, which proved riparian corridors for steel head 
trout, coho salmon and other aquatic species.
    S. 941 also authorizes the National Park Service to include within 
the GGNRA the Martini Creek-Devil's Slide Bypass right-of-way, which 
was purchased by the California Department of Transportation (Caltrans) 
to build a highway across Montara Mountain. When San Mateo voters 
overwhelmingly decided in a local referendum in favor of building the 
Devil's Slide tunnel rather than the Martini Creek Bypass, this right-
of-way became obsolete. This property covers approximately 300 acres 
and divides the Rancho Corral de Tierra property and connects the 
proposed additions to the GGNRA to existing State parkland, creating a 
seamless belt of parkland. Once the GGNRA boundary is adjusted through 
this legislation to include this right-of-way, Caltrans will be able to 
donate the property to the National Park Service.
    S. 941 also authorizes the National Park Service to include within 
the GGNRA boundaries approximately 500 acres of land along the Devil's 
Slide section of Coastal Highway 1, the scenic highway that winds its 
way along the entire California coast. These properties will make a 
logical addition to the park by filling in gaps to adjacent and 
existing State and Federal parkland. Caltrans either already owns or 
will acquire these lands when it builds the Devil's Slide tunnel and 
will then donate these properties for open space use after the tunnel 
is built. It is not the intention of this legislation, Mr. Chairman, to 
interfere with Caltrans' responsibility for building the tunnel at 
Devil's Slide. This legislation will simply make it possible for 
Caltrans or any other state or local agency to donate th6se properties 
to the National Park Service when the Devil's Slide tunnel is completed 
and when the National Park Service has determined that the acquisition 
of these lands is appropriate.

                       PRIVATE-PUBLIC PARTNERSHIP

    Mr. Chairman, the Rancho Corral de Tierra Golden Gate National 
Recreation Area Boundary Adjustment Act provides the federal government 
a unique opportunity to place approximately 5,000 new acres of pristine 
land under permanent protection. The Peninsula Open Space Trust (POST) 
purchased the Rancho Corral de Tierra site for $29.75 million to save 
the site from development and to preserve this important natural area. 
POST is a local land conservancy trust in the San Francisco Bay Area 
and has a remarkable track record in working with and assisting the 
federal government with the protection of other important open space in 
the Bay Area. POST has offered to donate a significant amount towards 
the federal acquisition of the Rancho Corral de Tierra property through 
private contributions.
    Under this legislation, the Rancho Corral de Tierra will be 
preserved through a tripartite partnership between the National Park 
Service, California State Parks and the Peninsula Open Space Trust. For 
the Corral de Tierra property, we will seek 50% of the acquisition from 
the federal government and 50% through state and private contributions. 
The other properties will be donated by Caltrans.

                          STRONG LOCAL SUPPORT

    S. 941 enjoys strong local support. The Golden Gate National 
Recreation Area and Point Reyes National Seashore Citizens Advisory 
Commission adopted a resolution endorsing this legislation and 
supporting the addition of these areas into the GGNRA after holding a 
public hearing and receiving public comment from local residents. The 
San Mateo County Board of Supervisors also passed a resolution 
supporting enactment of S. 941. The legislation also has the strong 
support of local environmental advocacy and preservation groups. The 
proposed additions were studied by POST in accordance with National 
Park Service criteria and in consultation with National Park Service 
staff. The study found that the three tracts of land meet the criteria 
for additions to units of the National Park Service. The study found 
that the properties will preserve significant natural, scenic and 
recreational resources that are equal to or unparalleled in the Golden 
Gate National Recreation Area.

            S. 941 REAUTHORIZES CITIZENS ADVISORY COMMISSION

    S. 941 will also reauthorize the Golden Gate National Recreation 
Area and Point Reyes National Seashore Citizens Advisory Commission for 
an additional 20 years. The Advisory Commission has been an invaluable 
resource for park management since its inception in 1972. It provides 
an important forum for the gathering and receipt of public input, 
public opinion and public comment and allows the park to maintain 
constructive and informal contacts with both the private sector and 
other federal, state and local public agencies. The Advisory Commission 
aids in strengthening the spirit of cooperation between the National 
Park Service and the public, encourages private cooperation with otter 
public agencies, and assists in developing and ensuring that the park's 
general management plan is implemented.

                               CONCLUSION

    Mr. Chairman, preserving our country's unique natural areas must be 
one of our highest national priorities, and it is one of my highest 
priorities as a Member of Congress. We must preserve and protect these 
unique and rare areas for our children and grandchildren today or they 
will be lost forever. Adding these news lands to the GGNRA will provide 
greater recreational opportunities for the public to enjoy and will 
allow us to protect these fragile natural areas from encroaching 
development or other inappropriate uses which would destroy the scenic 
beauty and natural character of this key part of the California coast. 
The California coast is a true national treasure and with your help we 
can preserve it for the generations that follow us. I strongly urge 
your support of S. 941, the Rancho Corral de Tierra Golden Gate 
National Recreation Area Boundary Adjustment Act of 2001.
    Thank you.

               STATEMENT OF HON. ANNA G. ESHOO, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Ms. Eshoo. Thank you. Thank you to my colleague, my 
wonderful colleague, Tom Lantos, and to you, Mr. Chairman, for 
welcoming us and giving us a moment to speak on behalf of an 
acquisition that we in the bay area, in northern California, in 
California, and as Americans I think will all be able to 
applaud and be proud of.
    I promise to be brief. We not only have a vote on, but we 
do not want to wear out our welcome. The project enjoys across-
the-board support. There is not any opposition, and we in 
Congress like to see these issues settled at home so that we do 
not have to become referees, so the meritoriousness of the case 
has been applauded and embraced by not only organizations, but 
by elected officials, city and county, and the people at home.
    It is a smart investment of the taxpayers' Federal dollar. 
Why? Because we are not asking the Federal Government to put 
all of the money up. Audrey Rust, if you really knew her, Mr. 
Chairman, you would want to take her to your State. She is the 
best of the best, and so private dollars are being invested in 
this as a magnate for public funds, and so it is, as we say, 
half and half.
    I think that this project really speaks to some of the 
deepest values of the American people. In the bay area, the 
GGNRA is not just the jewel in the crown, it is the crown, and 
I would like to think of the addition--good afternoon, Mr. 
Chairman--the addition of and the acquisition of these pieces 
of land becoming the southern gateway to the Golden Gate 
National Recreation Area that we will be taking jewels and 
adding them to that crown.
    So on behalf of my constituents, my colleagues in the 
House, and my gratitude to our two Senators, your colleagues, 
Senators Feinstein and Boxer, and to all the members of this 
committee, but most especially the chairman and you, Senator 
Craig, we thank you for this opportunity to come and speak on 
behalf of something that we just could not be prouder of, and 
stand behind, and look for your very important support to make 
this great dream come true.
    Thank you. Can I give these to you, too?
    Senator Thomas. If you needed to leave, you could come 
back.

                STATEMENT OF HON. BRIAN BAIRD, 
              U.S. REPRESENTATIVE FROM WASHINGTON

    Mr. Baird. I will be all right I think, sir. Thank you very 
much.
    Mr. Chair, Senator Thomas, Thank you very much. David Wu, 
my colleague from Oregon, is unable to join us. He is, I am 
sure, over on the floor right now. He was involved in the prior 
debate. I want to thank you for this brief opportunity to 
testify in support of S. 423, a bill to expand Fort Clatsop 
National Historic Site and also to study the feasibility of 
including Washington State sites.
    Very briefly, as you know, I am sure, the 200th Anniversary 
of the Lewis & Clark journey of discovery is coming up. 2003 
will be the bicentennial of when they started, and 2005 is when 
they reached the coast. We are expecting literally millions of 
visitors from around the country and from around the world. In 
fact, they are already starting to come in.
    Fort Clatsop has some valuable area nearby to the current 
site, and a small expansion would allow it to preserve 
historical features, and also to provide a better experience 
for the public.
    On the Washington State side, there are valuable resources. 
Let me cite two for example. A place now called Station Camp, 
where Lewis & Clark had the difficult decision of where do they 
spend the winter. It was not an easy one. The mouth of the 
Columbia River is rough country, and they took a vote.
    What was so remarkable about the vote was that they 
involved York, who was actually Clark's slave, and Sacagawea in 
the vote. This was 100 years before suffrage, and more than 60 
years before the Emancipation Proclamation, so here we are, a 
critical site, a critical journey in American history. We would 
like to commemorate that site.
    If you were to visit it today it is almost unrecognizable 
in the sense it has not been touched much since Lewis & Clark, 
but there is really no recognition of the site to speak of. 
Also, Fort Canby, which is on the coast of Washington State, 
currently a State park, we would like to explore some 
alternatives for working with the Federal Government to 
commemorate that site.
    We think the Senate bill is an outstanding one. Congressman 
Wu, myself, and Congressman Souler have introduced a companion 
in the House. We look forward to working with this committee 
and this body to make this a reality.
    [The prepared statement of Mr. Baird follows:]

      Prepared Statement of Hon. Brian Baird, U.S. Representative 
                            From Washington

    The Bicentennial Commemoration of the Lewis and Clark expedition is 
only two years away. In 2003, communities across the nation will begin 
commemorating the Corps of Discovery and the promise that they brought 
back. It is my hope that during this commemoration, Americans will 
visit important stops along this journey of discovery in the Third 
Congressional District, including Station Camp and Fort Canby State 
Park.
    On November 15, 1805, William Clark stopped at Station Camp, 
sometimes referred to as Megler's Rest, and proclaimed, I am in ``full 
view of the ocean.'' It was at this historic site that Clark penned his 
famous map indicating that the Corps had completed one of Thomas 
Jefferson's directives--to reach the Pacific Ocean. This is also the 
site of the historic vote taken by Captains Meriwether Lewis and 
William Clark to determine where the Corps would camp for the winter. 
Although the year, was 1805, nearly 60 years before the emancipation of 
the slaves and a century before women were given the privilege of 
voting, Lewis and Clark called for a vote by the entire Corps. Both 
Sacagawea, the Shoshone interpreter, and York, Clark's slave, were 
allowed an equal vote with all other members of the Corps. This 
historic moment occurred at Station Camp. It is indicative of the 
forward thinking employed by the Captains throughout the journey which 
led to their incredible level of success.
    Today, I have the pleasure of introducing legislation with 
Congressman Wu that seeks to expand the Ft. Clatsop National Memorial. 
This is the only unit in the National Park System that is solely 
dedicated to the amazing journey of Lewis and Clark. Of great 
importance to my congressional district, the legislation calls for the 
Secretary of the Interior to study the inclusion of the ``Station 
Camp'' site and Fort Canby within the Fort Clatsop National Memorial.
    The legislation calls for the National Park Service to work 
collaboratively with the States of Washington and Oregon and Indian 
tribes on the expansion of Fort Clatsop to study including these new 
sites before the start of the bicentennial of the Lewis and Clark 
Expedition, planned to take place from 2003 to 2006. I appreciate your 
careful consideration of this request for inclusion of these important 
historical sites within the Fort Clatsop National Memorial.

    Senator Akaka. Thank you very much for your statement. Do 
you have any questions?
    Senator Thomas. No, I do not, thank you.
    Senator Akaka. I do not have any questions. I again want to 
say thank you.
    I would like to take a minute to make a brief statement 
about S. 1057, legislation which I recently introduced with my 
colleague, Senator Inouye, to provide authority to Pu'uhonua o 
Honaunau, formerly the City of Refuge National Historical Park, 
to expand its boundaries by 238 acres, the preferred option in 
recent park service studies.
    The modest expansion of Pu'uhonua o Honaunau, which means 
``a place of refuge at Honaunau,'' would allow for the 
inclusion of an area that contains cultural and historical 
resources of national significance. This expansion has been in 
the making for a long time. For over 30 years, the National 
Park Service has planned for the eventual expansion of the park 
from its existing 180 acres in order to protect the spiritual 
nature of the area.
    The 1977 master plan for Pu'uhonua proposed several 
expansions, including the one we are addressing in this 
hearing. In 1992, a boundary study was prepared identifying 
options for expansion, once again including consideration of 
the Ki'ilae village parcel. At the time, the owners of the 
Ki'ilae village property had not expressed a desire to sell. In 
July 2000, the situation changed dramatically when the land was 
sold to a development corporation. The proposed development 
would subdivide approximately 804 acres within Ki'ilae and the 
neighboring ahupua'a, which are Native Hawaiian mountain-to-sea 
resource management areas.
    The new owners have indicated an interest in selling a 238-
acre parcel of the land, and have had discussions with the 
National Park Service. At the same time, the Park Service 
undertook a resource reconnaissance study and an appraisal of 
the property. Public meetings have been held to discuss the 
potential expansion with the community. Expansion is broadly 
supported, and I would like to submit letters from Hawaii 
County Mayor Harry Kim and Hawaii County Council Member Julie 
Jacobson for the record.
    All of the witnesses testifying today have traveled a long 
distance to be here. I would like to welcome all of you. I am 
especially pleased to welcome two witnesses from the Aloha 
State, Mr. Jim Medeiros, Sr., and Mr. Wayne Leslie, who will be 
testifying on the Pu'uhonua bill a little later this afternoon.
    Senator Feinstein has asked to have her statements 
including in the record related to S. 941, the Golden Gate 
National Recreation Area expansion, and H.R. 640, the Santa 
Monica Mountains National Recreation Area legislation, and 
without objection they will be included in the record.
    Mr. John Reynolds, Regional Director of the Pacific West 
Region of the National Park Service is the next witness, so 
will you be seated?
    Senator Smith. Well, we are glad to have Senator Smith on 
the dais with us, and Mr. Reynolds, will you hold a second 
while I have Senator Smith make his statement?

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you very much, Senator Akaka, and 
Senator Thomas, for holding this hearing. I want to extend a 
warm welcome to Don Striker, who is the superintendent of the 
Fort Clatsop National Memorial. We both share a love of Oregon 
history, and I am very glad to have him here today.
    We are rapidly approaching, Mr. Chairman, the bicentennial 
of the Lewis & Clark journey which ended at Fort Clatsop that 
they established at the most remote corner in what is today the 
State of Oregon. They spent 106 rainy days there and on 
Christmas Day of 1805 William Clark wrote, ``the day proved 
showery, wet, and disagreeable.''
    Although the winter weather in Oregon has not changed much, 
much of our history has been very bright and clear for the two 
centuries since then in terms of the westward expansion. I know 
that I am not alone in my appreciation of Lewis & Clark 
history. We have seen the wonderful history by Mr. Ambrose on 
undaunted courage, and I think America is very much awakening 
to the bicentennial that we will celebrate of this great 
journey of discovery.
    The legislation I have cosponsored with Senators Wyden and 
Murray is an important and timely endeavor to expand the Fort 
Clatsop National Memorial in Oregon. It will authorize the 
extension of the park's boundaries to include the trail from 
Fort Clatsop to the Pacific Ocean. Our legislation will also 
promote a study of Station Camp in Washington State to 
determine its suitability for inclusion in the National Park 
System. Like all those involved in this project, from the 
wiling sellers of the land to those fluffing up their coonskin 
hats to celebrate this bicentennial, I am excited to earn the 
support of my colleagues in the Senate and make this 
legislation a unanimous reality.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you for your statement, Senator Smith, 
and thank you for being here.
    Mr. Reynolds, it is nice to see you again.

STATEMENT OF JOHN J. REYNOLDS, REGIONAL DIRECTOR, PACIFIC WEST 
  REGION, NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR, 
   OAKLAND, CA, ACCOMPANIED BY CHRIS POWELL, SUPERINTENDENT, 
              GOLDEN GATE NATIONAL RECREATION AREA

    Mr. Reynolds. Thank you, Mr. Chairman. It is a pleasure to 
be here, and may I just say to the three of you, you are all 
three people who are highly and deeply respected around the 
National Park Service, and we appreciate the degree to which 
you care for the parks and for how they are administered, and 
thank you. It is always an honor to appear before you.
    I assume, sir, that I should go through the testimony for 
each of the five areas and then have questions, or would you 
like me to pause between each one?
    Senator Akaka. Well, let me welcome you. Welcome to the 
subcommittee.
    Mr. Reynolds. Oh, I am sorry. My apologies.
    Senator Akaka. We will include your full statement on each 
bill in the hearing record, so please feel free to summarize 
your remarks. Please proceed with your statements on all of the 
bills in whatever order you would like, and then we will go to 
questions from members of the committee. That will be the 
order, so with that, will you please proceed?
    Mr. Reynolds. Thank you, sir. Thank you for the opportunity 
to present the Department of the Interior's views on these 
several bills. The first is S. 423, a bill to adjust the 
boundaries of Fort Clatsop National Memorial. The Department of 
the Interior supports S. 423, to expand the boundaries of Fort 
Clatsop National Memorial.
    This bill will authorize implementation of the 1995 general 
management plan for the memorial, which calls for the 
establishment of a trail linkage between Fort Clatsop and the 
Pacific Ocean and adds sufficient land to the memorial to 
provide for the protection of scenic and natural resources that 
frame the park setting.
    This bill enjoys broad bipartisan support at all levels, 
including local and State bicentennial planning committees and 
Oregon and Washington, Clatsop County, the Chinook Tribe, and 
the National Council of the Lewis & Clark Bicentennial.
    S. 423 also includes a provision to authorize the Secretary 
of the Interior to conduct a study of the area known as Station 
Camp, which is located on the Washington side of the Columbia 
River, and is where Lewis and Clark camped from November 15 
through 24, 1805. The Department supports this study provision 
in concept.
    This concludes my testimony on S. 423.
    Second is S. 941, a bill to revise the boundaries of the 
Golden Gate National Recreation Area and to extend the term of 
the advisory commission for the recreation area. The Department 
of the Interior supports S. 941. S. 941 would add lands to the 
recreation area known as the Rancho Corral de Tierra and the 
Devil's Slide Area. The Rancho property, approximately 4,262 
acres, has recently been acquired by the Peninsula Open Space 
Trust, known as POST, and is being held in anticipation of 
being included within the boundaries of the recreation area.
    In addition to the Corral de Tierra property, S. 941 would 
also include the area known as the Devil's Slide. These lands 
represent an unparalleled opportunity to include within the 
recreation area lands of exceptional natural, scenic, and 
recreational value. There are several options under 
consideration for the long-term stewardship of these lands, 
including partnership arrangements involving the National Park 
Service, the California State parks, and POST.
    That concludes my testimony concerning S. 941.
    Third is S. 1057, a bill to adjust the boundaries of 
Pu'uhonua o Honaunau.
    Senator Akaka. Mr. Reynolds, may I ask you to suspend?
    Mr. Reynolds. Of course.
    Senator Akaka. We have Senator Wyden from Oregon who is 
here, and I would like to give him an opportunity to make his 
statement.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Well, thank you, Mr. Chairman. I thank you 
for your courtesy, and to our witness. I will be very brief.
    Senator Akaka. Without objection.
    Senator Wyden. Thank you, Mr. Chairman. I heard part of my 
colleague's remarks, and he and I and Senator Murray have all 
been working together on this legislation for some months. I 
was recently in Astoria on the coast for a special program put 
together by Don Striker, who I think is with us today, and I 
cannot recall a time in our State where I have seen this level 
of enthusiasm. I mean, this is an extraordinary coming together 
of citizens in both the public and the private sector.
    Of course, there is going to be a huge influx of visitors. 
There will be over a 1/4 million people who are going to visit 
the Fort Clatsop Memorial during the bicentennial years. Don 
Striker and his team have really done this job right.
    Suffice it to say, Senator Smith and I made a real 
challenge. We made it clear that this was not going to be 
something where Washington, D.C. could just come on in and wave 
a wand and suddenly make vast sums of money and land come 
together. These folks went out and mobilized the community. The 
Park Service now realizes that this is one of their highest 
priorities, and this is an example of how you go about doing 
the job right, working with local landowners and bringing 
together the relevant Government agencies in a partnership 
effort.
    I thank you especially for letting me, having been late, 
come on in and offer this comment, and we appreciate very much 
the support, and also special praise to Don Striker and his 
whole team. That day when I was in Astoria I was just struck as 
I looked out over the audience. There were hundreds of people 
there at all of the individual contributions, and that is what 
makes these programs a treasure, and we appreciate your help.
    Senator Akaka. Thank you very much, Senator Wyden. We 
appreciate your statement.
    Senator Wyden. Thank you.
    Senator Akaka. Mr. Reynolds, will you continue?
    Mr. Reynolds. Thank you, sir. Senator Wyden, thank you very 
much.
    The third bill is S. 1057, the bill to adjust the 
boundaries of Pu'uhonua o Honaunau National Historical Park in 
Hawaii. The Department supports S. 1057. This legislation will 
adjust the authorized boundary of the park to include the 
remainder of Ki'ilae Village within the park. The proposed 
expansion is located on lands immediately adjacent to, but 
outside of the existing southern park boundary. It would add 
238 acres to the 182 acres presently within the park. The 
addition of another 165 acres would also be authorized if those 
lands are acquired in the future.
    Both parcels contain important physical remains of the 
Native Hawaiian culture that is directly associated with the 
Pu'uhonua o Honaunau. There is strong local support to protect 
and include these resources within the park. This reflects the 
high level of cooperation and strong commitment of local 
communities and governments towards the park.
    That concludes my testimony on S. 1057.
    The fourth bill is S. 1105, a bill to provide for the 
completion of the acquisition of State of Wyoming lands within 
the boundaries of Grand Teton National Park. The Department 
supports the legislation, and thanks Senator Thomas and Senator 
Enzi for their continued interest and support of the National 
Park System and Grand Teton National Park.
    Jack Neckels actually tells me, Senator Thomas, that you 
folks have been working on this for a long, long time to bring 
this to a conclusion.
    S. 1105 would authorize the Secretary of the Interior to 
acquire from the State of Wyoming 1,366.32 acres of land and 
mineral interests on 39.59 acres, all within the current 
boundary of Grand Teton National Park, in exchange for other 
Federal lands and/or other Federal assets of equal value. The 
legislation also details the process under which the exchange 
would take place.
    There is broad support for making these exchanges, and that 
support has been expressed in a variety of ways, including a 
letter to Secretary Norton from Wyoming Governor Jim Geringer.
    Mr. Chairman, that concludes my testimony on S. 1105.
    Finally, testimony on H.R. 640, a bill to adjust the 
boundaries of Santa Monica Mountains National Recreation Area 
in southern California. The Department supports H.R. 640. This 
legislation will adjust the authorized boundary of Santa Monica 
Mountains National Recreation Area to encompass the most 
important wildlife corridor in the area.
    The legislation requires that acquisition of lands within 
the expansion area be accomplished only through donation, a 
provision that reflects the high level of cooperation and 
strong commitment of local communities and governments towards 
the park. Acquisition of these lands is important to protect 
critical habitat required for the free movement and migration 
of wildlife, specifically mountain lions, bobcats, and similar 
species, between the Santa Monica Mountains and the Simi Hills, 
thereby preventing local extinction of species in the park.
    Together with existing National Park Service lands, these 
three parcels form the only remaining wildlife corridor in the 
region which connects the park to the national forestlands to 
the north.
    In addition, this legislation would protect a significant 
portion of Upper Las Virgenes Creek, which is part of the 
Malibou Creek Watershed, the largest fresh water system within 
the recreation area which flows into the Santa Monica Bay, on 
which approximately 30 million people recreate annually, so the 
clean water is important in that area.
    Mr. Chairman, we are pleased to support this proposal, and 
all the lands reserved through the efforts of local communities 
and governments for transfer to the National Park Service may 
be worth as much as $60 million under current market 
conditions. The legislation before you today is a testament to 
the cooperation and commitment of the citizens, local 
governments, and the park agencies in the Santa Monica 
Mountains.
    This concludes my testimony on all five bills. I will be 
more than happy to answer any questions that any of you may 
have on any of the bills, and with me today, as you know, is 
Superintendent Don Striker from Fort Clatsop, Superintendent 
Geri Bell from Pu'uhonua o Honaunau, and Chris Powell from 
Golden Gate National Recreation Area, who is on assignment on 
an executive leadership training program.
    Thank you, sir.
    [The prepared statements of Mr. Reynolds on S. 423, S. 941, 
S. 1057, S. 1105, and H.R. 640 follow:]
  Prepared Statements of John J. Reynolds, Regional Director, Pacific 
    West Region, National Park Service, Department of the Interior, 
                              Oakland, CA

                                 S. 423

    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss the views of the Department of the Interior on S. 423, 
S. 941, S. 1057, S. 1105, and H.R. 640.
    S. 423, a bill to adjust the boundaries of Fort Clatsop National 
Memorial.
    The Department of the Interior supports S. 423 with a technical 
amendment as outlined in this testimony. This legislation will expand 
the boundaries of Fort Clatsop National Memorial, as called for in the 
site's General Management Plan, to include lands on which a trail 
linkage between Fort Clatsop and the Pacific Ocean will be established. 
The bill would also include within the boundary lands that will create 
a buffer zone to protect the scenic and natural resources that frame 
the park setting.
    Meriwether Lewis and William Clark set off with their Corps of 
Discovery on May 14, 1804 on an incredible journey that was to be a 
pivotal event in helping to shape the young United States. Their 
instructions from President Thomas Jefferson were to explore the 
Missouri River to its source, establish the most direct land route to 
the Pacific Ocean, and to make scientific and geographic observations 
along the way. A year and a half later, having traversed the continent, 
the expedition arrived at the Pacific Ocean and soon thereafter found a 
site that was suitable for winter quarters on what is known today as 
the Lewis and Clark River. On December 8, 1805, the expedition members 
began building a fort, and by Christmas Eve they were under shelter. 
They named the fort for the friendly local Indian tribe, the Clatsops. 
It would be their home for the next three months.
    Life at the fort was far from pleasant. It rained every day but 12 
of the 106 days at Fort Clatsop. Clothing rotted and fleas infested the 
furs and hides of the bedding. The dampness gave nearly everyone 
rheumatism or colds, and many suffered from other diseases. With all 
the adversity, the members of the expedition continued to prepare for 
the return trip that would take some home to family and friends, some 
to wealth and fame, and others to new lives in the wilderness. All 
gained a place in history among the greatest of explorers. They were 
truly the ``Corps of Discovery.''
    Fort Clatsop National Memorial marks the spot where Lewis and Clark 
and the Corps of Discovery spent the winter of 1805-1806, and is the 
only unit of the National Park System solely dedicated to the Lewis and 
Clark expedition. The bicentennial of the historic journey is fast 
approaching, and it is expected that well over a million people will 
visit the site during the bicentennial years of 2003 through 2006.
    The historic site of Fort Clatsop was originally preserved and 
protected by the Oregon Historical Society, and local citizens 
constructed an exact replica of the fort itself, which had long ago 
disappeared, except for drawings and descriptions in the journals of 
Lewis and Clark. In 1958, Fort Clatsop National Memorial was 
established by Public Law 85-435, which authorized the inclusion within 
the memorial of lands that are associated with the winter encampment of 
the Lewis and Clark Expedition, including adjacent portions of the old 
trail which led overland from the fort to the coast, where members of 
the expedition worked to make salt for their trip back across the 
continent. The act also limited the site to no more than 125 acres.
    Soon after the enactment of Public Law 85-435, the National Park 
Service acquired the land immediately surrounding the fort, and in 
1978, the Salt Cairn site on the coast was added to the memorial by 
Public Law 95-625. However, the lands between the fort and the ocean, 
including the trail, have not been acquired. Legislation is needed to 
accomplish this goal since the memorial has already effectively reached 
its acreage limitation.
    The 1995 General Management Plan for the memorial calls for the 
establishment of the trail linkage between Fort Clatsop and the Pacific 
Ocean, and in addition proposes to add sufficient land area to the 
memorial to provide for the protection of the scenic and natural 
resources that frame the park setting. Since the natural setting of the 
encampment area is an important component of the Lewis and Clark story, 
its preservation would assist in public interpretation at the fort, 
along with providing a corresponding benefit to the natural environment 
surrounding the fort. S. 423 increases the authorized size of Fort 
Clatsop National Memorial from 125 acres to 1,500 acres and reflects 
the intent of the General Management Plan to include these lands within 
the park's boundary.
    In addition, this legislation includes the addition of a ``non-
development buffer zone'' at the request of Willamette Industries, who 
suggested that these additional lands, totaling approximately 300 
acres, be included to protect the viewshed from their timber 
operations. The Department and Willamette have agreed that these lands 
should be acquired by condemnation because Willamette's title to the 
property is not clear. Since obtaining a quiet title to the standards 
required by the Department of Justice would be exceedingly difficult, 
if not impossible, both parties have agreed that condemnation is the 
best alternative.
    The Department believes that this legislation is important for 
several reasons. First, time is of the essence in completing the land 
acquisition, environmental reviews, engineering and design, and trail 
construction that is necessary to complete this final link in the Lewis 
and Clark National Historical Trail for the bicentennial commemoration. 
Secondly, this legislation represents the completion of a process 
heavily influenced by local stakeholders. Third, this bill enjoys 
broad, bipartisan support at all levels, including local and state 
bicentennial planning committees in Oregon and Washington, Clatsop 
County, the Chinook Tribe, and the National Council of the Lewis and 
Clark Bicentennial.
    As you know, the Department is committed to the President's 
priority of eliminating the National Park Service's deferred 
maintenance backlog and is concerned about the development and life 
cycle operational costs associated with expansion of parks already 
included in the National Park System. However, in light of the 
increasing interest in the Lewis and Clark story as we approach the 
bicentennial of the expedition, the Department believes that the $7.5 
million needed for land acquisition, and the $1.1 million for 
development costs associated with trailhead facilities, parking lots, 
and other associated infrastructure are justified. Funding for land 
acquisition and development would be subject to NPS servicewide 
priorities and the availability of appropriations.
    In addition, we note that the Fort Clatsop Historical Association 
has already purchased some of the lands associated with this 
legislation and will donate them to the park after the boundary has 
been adjusted. We expect that the government's efforts will be 
leveraged through several partners, including the Army National Guard, 
local trail enthusiasts, and the local high schools, who have agreed to 
volunteer with trail construction and maintenance. We anticipate the 
park would seek only minor increases in operational costs (below 
$250,000) beyond its existing base funding of $1.1 million.
    S. 423 also includes a provision to authorize the Secretary of the 
Interior to conduct a study of the area known as ``Station Camp,'' 
which is located on the Washington side of the Columbia River and is 
where the Lewis and Clark expedition camped from November 15-24, 1805. 
While the Department supports this study provision in concept, we 
believe that the study should carefully examine the full life-cycle 
operation and maintenance costs that would result from each alternative 
considered. In addition, in light of our commitment to eliminate the 
deferred maintenance backlog in the national parks, our support for the 
study does not necessarily indicate that the Department would support 
any new commitments that may be recommended by the study, and that 
could divert funds from taking care of current responsibilities.
    We recommend one technical amendment to the bill, which is attached 
to the testimony.
    That concludes my testimony. I would be glad to answer any 
questions that you or the members of the subcommittee may have.
Proposed Amendment to S. 423:
    On page 4, line 13 strike ``newly expanded boundary'' and insert 
``boundary as depicted on the map described in section 2(b)''.

                                 S. 941

    S. 941, a bill to revise the boundaries of the Golden Gate National 
Recreation Area and to extend the term of the advisory commission for 
the recreation area.
    The Department of the Interior supports S. 941. The addition of 
these lands will preserve exceptional natural, scenic and recreational 
resources displaying values commensurate with or exceeding those of the 
lands currently within the boundary of Golden Gate National Recreation 
Area. In addition, these properties, if added to the park, will provide 
it with a logical and understandable southern boundary, which is 
currently lacking.
    Golden Gate National Recreation Area was established in 1972 by 
Public Law 92-589 ``. . . to preserve for public use and enjoyment 
certain areas of Marin and San Francisco Counties . . .'' and has since 
been expanded to include lands within San Mateo County. Located at the 
center of a major metropolitan area of more than 5 million people, a 
major factor in Golden Gate's significance is its ability to provide 
national park experiences to unprecedented numbers of local, regional, 
national, and international visitors.
    In 1980, Congress passed legislation that expanded the boundaries 
of Golden Gate National Recreation Area to include substantial areas of 
San Mateo County. The legislation was engendered by a proposal to 
develop the 1,100-acre property known as Sweeney Ridge, which included 
the presumed location of the first European siting of San Francisco Bay 
in 1769. In order to minimize the cost of the project and to keep the 
focus on the development threat, the legislation limited the inclusion 
of private land strictly to the Sweeney Ridge property. The outcome was 
somewhat of a patchwork, leaving out significant privately owned open 
space and natural resources and creating a boundary that is difficult 
to recognize and manage in the field.
    S. 941 would add lands to the recreation area known as the Rancho 
Corral de Tierra and the Devil's Slide area. The Corral de Tierra 
property includes approximately 4,262 acres and contains the headwaters 
and most of the watershed of the four major coastal stream systems, 
providing riparian habitat for a number of threatened and endangered 
animal species, and a scenic backdrop that visually distinguishes the 
San Mateo mid-coast region. The peaks of Montara Mountain rise to more 
than 1,800 feet just two miles from the water's edge, providing some of 
the most spectacular panoramic views to be found in northern 
California. The property has recently been acquired by the Peninsula 
Open Space Trust (POST), and is being held in anticipation of being 
included within the boundaries of the recreation area.
    In addition to the Corral de Tierra property, S. 941 would also 
include within the boundaries of the recreation area lands in the area 
known as the Devil's Slide. These lands, comprising approximately 500 
acres, are associated with plans by the California Department of 
Transportation (Caltrans) to reroute Highway 1 through a new tunnel 
that is to be constructed in the area. When the tunnel project is 
complete, the existing surface road will be abandoned, thereby severing 
access to several properties in the Devil's Slide area. In the way of 
mitigation, it is expected that Caltrans will purchase the properties 
from the current owners to be dedicated as permanent open space. The 
existing roadbed will be donated by Caltrans for use as a trail. 
Inclusion of these lands within the boundaries of the recreation area 
will allow for their conveyance to the National Park Service. Also 
included in this addition is a Caltrans right-of-way which was 
purchased for the construction of a highway over Montara Mountain. 
Since Caltrans will be constructing a tunnel instead, the right-of-way 
is surplus to Caltrans' needs. This property divides the larger Corral 
de Tierra parcel included in this legislation, and thus is important 
for connecting these two parcels and ensuring contiguous open space.
    These proposed additions to the recreation area are in accordance 
with a recent boundary study conducted by POST in consultation with 
National Park Service staff. The study found that these properties meet 
the criteria established by the National Park Service for addition of 
land to units of the National Park System. In this case, these lands 
represent an unparalleled opportunity to include within the recreation 
area lands of exceptional natural, scenic, and recreational value. The 
properties include many old trails and farm roads that could be easily 
adapted to recreational use, which may become the principal visitor 
activity within the area. In addition, these lands will be of great 
value through their role in protecting important wildlife habitat and 
maintaining the integrity of scenic views. There are several options 
under consideration for the long-term stewardship of these lands, 
including partnership arrangements involving the National Park Service, 
California State Parks, and POST.
    As you know, the Department is committed to the President's 
priority of eliminating the National Park Service's deferred 
maintenance backlog. We are also concerned about the development and 
life cycle operational costs associated with expansion of parks already 
included in the National Park System. With that in mind, we expect that 
the costs of acquiring the Corral de Tierra property would be shared 
between the federal government, the State of California, and private 
donations raised by POST, who acquired these lands in the Spring of 
2001 for $29.7 million. It is anticipated that the Federal portion of 
the acquisition cost will be $15 million with the remaining costs 
contributed locally by California State Parks and POST. Funds to 
purchase this property would be subject to NPS service-wide priorities 
and the availability of appropriations.
    The Devil's Slide parcels, associated with the Caltrans project, 
would be acquired only through donation.
    Since protection of these lands will be through a partnership with 
California State Parks and POST, it is anticipated that the National 
Park Service will only be responsible for a portion of the operating 
costs. The life cycle costs of maintaining these additions will be 
moderate, as these lands contain few buildings or structures and we do 
not anticipate major development of facilities. These lands will be 
used for low impact recreation, such as hiking and biking. Therefore, 
we anticipate most of the future upkeep of these lands will include 
trail and fire road maintenance, minimal new trail construction, trail 
signage and resource protection. These costs will be leveraged with 
funding from the private sector.
    Although GGNRA's general management plan does not address these 
areas, it is anticipated that these land will be less heavily impacted 
than other areas of the park, such as Marin Headlands and Muir Woods. 
Adding to that the steepness of the terrain, recreation will be 
confined to the lower portions of the land.
    S. 941 also extends the term of the advisory commission for the 
recreation area until December 31, 2022. The advisory commission was 
established by the same law that created the recreation area and serves 
to provide for the free exchange of ideas between the National Park 
Service and the public. The law provided a 30-year term for the 
commission, which expires on December 31, 2002. S. 941 extends the term 
for another 20 years.
    That concludes my testimony. I would be glad to answer any 
questions that you or the members of the subcommittee may have.

                                S. 1057

    S. 1057, a bill to adjust the boundaries of Pu'uhonua o Honaunau 
National Historical Park.
    The Department supports S. 1057. This legislation will adjust the 
authorized boundary of Pu'uhonua o Honaunau National Historical Park to 
include the remainder of Ki'ilae Village within the park. The proposed 
expansion is located on lands immediately adjacent to, but outside the 
southern park boundary, and would add 238 acres to the 182 acres 
already within the park. The addition of another 165 acres would also 
be authorized if the lands are ever acquired.
    Ki'ilae is an ancient Hawaiian settlement dating back to the late 
12th or early 13th centuries. The settlement remained active until the 
1930's, making it one of the last traditional Hawaiian villages to be 
abandoned. The proposed boundary adjustment consists of adding lands 
containing the archeological remains of this Hawaiian village. Lands to 
be added to the park contain more than 800 archeological sites, 
structures and features. These include at least 25 caves and 10 heiau 
(Hawaiian temples), more than 20 rock platforms, 26 rock wall 
enclosures, over 40 burial features, residential compounds, a holua 
(recreational slide used by Hawaiian royalty), canoe landing sites, a 
water well, numerous rock walls and a wide range of agricultural 
features.
    The proposed expansion dates back to a 1957 archeological survey 
conducted by the Bishop Museum. This survey found that the greater part 
of the ancient village of Ki'ilae, as well as other significant 
Hawaiian archeological resources, were left outside of the park 
boundaries established by Congress in 1955. Pu'uhonua o Honaunau's 1972 
Master Plan identifies Ki'ilae Village as one of the park's major 
resources and the master plan graphics show village remains extending 
well beyond the existing park boundaries. In 1992, a boundary study was 
prepared for the park. Both the master plan and the boundary study call 
for adding the ``balance of Ki'ilae Village'' to the park. Up until 
last year, the property was unavailable because its ownership was not 
clear. The three heirs to the property have now settled the ownership 
issue, thereby clearing the way for the Park Service to acquire the 
land. S. 1057 would allow the boundary of the park to be expanded to 
protect this significant cultural resource.
    In light of the President's commitment to reducing the backlog of 
deferred maintenance needs within the National Park System before 
incurring additional financial burdens, it is encouraging to note that 
the present owner may consider donating one portion of the property to 
the National Park Service, while the other portion would be available 
for purchase and has been appraised at $4.6 million. Funds to purchase 
this property would be subject to NPS servicewide priorities and the 
availability of appropriations. Since no development is contemplated 
within the boundary adjustment area, no line item construction or 
significant development costs are anticipated, although there would be 
some one-time costs after acquisition to conduct an inventory of 
archeological resources and remove non-native vegetation. We expect 
that the park would seek to increase its base-operating budget in the 
range of $250,000 in order to hire two additional resource management 
employees, as well as two employees to provide services such as 
interpretation and law enforcement. This increase would have to compete 
against other demands for limited operational funds.
    There is strong local support to protect and include these 
resources within the Pu'uhonua o Honaunua National Historical Park. 
This reflects the high level of cooperation and strong commitment of 
local communities and governments toward the park. This kind of local 
support for land acquisition projects is an important part of the 
Department's support for this legislation.
    That concludes my testimony. I would be glad to answer any 
questions that you or the members of the subcommittee may have.

                                S. 1105

    S. 1105, a bill to provide for the completion of the acquisition of 
State of Wyoming lands within the boundaries of Grand Teton National 
Park.
    The Department supports the legislation and thanks Senator Thomas 
and Senator Enzi for their continued interest and support of the 
National Park System and Grand Teton National Park.
    S. 1105 would authorize the Secretary of the Interior to acquire 
from the State of Wyoming 1,366.32 acres of land, and mineral interests 
on 39.59 acres of land, all within the current boundary of Grand Teton 
National Park in exchange for other federal lands and/or other federal 
assets of equal value. The state trust lands and mineral interests were 
among the non-federal lands incorporated into the newly designated 
national park on September 14, 1950, bringing it to its present size 
(approximately 310,000 acres).
    The legislation also details the process under which the exchange 
would take place, including selection of an appraiser, approval of the 
value of the lands as well as a mechanism by which an appeal can be 
made in case the process fails.
    This acreage includes two full 640-acre sections. One section lies 
in the southeast area of the park known as Antelope Flats which is an 
open expanse of grasses and sagebrush that provides habitat for birds 
(including the declining sage grouse) and many large mammals (deer, 
antelope, elk, bison, coyotes, and wolves) and also provides the scenic 
foreground of the Teton Range. In the past, the state has leased the 
land for grazing.
    The second full section lies on the eastern boundary of the park, 
adjacent to the Bridger-Teton National Forest. The vegetation is a mix 
of grasses, sagebrush, and trees. The area provides excellent habitat 
for a variety of large and small animals. The state currently leases 
this section for grazing.
    The remaining acreage is located in the southwestern part of the 
park and is part of a 301-acre state parcel that straddles the park 
boundary. The Snake River runs through the parcel, which offers 
excellent riparian and wetland habitat. In the past, the state has 
leased the land for grazing.
    Finally, the state also owns the mineral interests on approximately 
39 acres of undeveloped sagebrush flats in the center of the park, 
slightly to the east.
    Over the last fifty-one years, the State of Wyoming and Grand Teton 
National Park have worked together on a variety of issues including 
compatible land uses. The National Park Service (NPS) has been 
interested in the purchase of, or exchange for, these lands for a long 
time. The Park's land protection files contain more than thirty years 
of correspondence on how to appropriately compensate the state for 
bringing the lands under federal ownership.
    The draft 2001 Grand Teton Land Protection Plan places fee 
acquisition of the state lands and mineral interest sixth on a list of 
fifteen priorities. Only some private lands that contain critical 
resources, or that are under intense development pressure in the high-
stakes, Jackson Hole real estate market are listed higher. The NPS 
believes that federal fee acquisition, through either purchase or 
exchange, is the best alternative for the Park. A federal appraisal has 
not been completed on the State lands and there have not been any sales 
or exchanges similar to the one proposed, so it is difficult to 
estimate either the cost of purchasing the state lands or how much 
federal land or interest in federal land would be required to exchange 
for them. Funding to purchase these lands would be subject to NPS 
servicewide priorities and the availability of appropriations.
    The State of Wyoming is actively pursuing disposing a different 
State owned section near Teton Village. Teton Village is located near 
the southwest corner of Grand Teton National Park and at the base of 
the Jackson Hole Ski Area. Currently, the State is negotiating the sale 
of the section for $30 million. Because the state lands described in 
the bill are inside a national park and bordered by permanently 
protected lands, we understand that they may be viewed as more 
valuable.
    The NPS will not require additional funds or staff to bring these 
lands under federal management. The additional lands would increase the 
acreage of Grand Teton National Park by approximately one half of one 
percent. Currently the State owned lands are surrounded by national 
park lands and have no roads or other formal access, although hikers 
use the lands occasionally. If acquired, the State lands can be managed 
by the park with existing staff and with no additional resources.
    There is broad support for making these exchanges and that support 
has been expressed in a variety of ways, including a letter to 
Secretary Norton from Wyoming Governor Jim Geringer. Editorials in the 
Jackson Hole News and Casper Star call the proposal, ``a win for all 
sides.''
    In his May 16, 2001, letter Governor Jim Geringer wrote, ``We would 
like to express to you our full support for the National Park Service 
acquiring our state trust lands located within Grand Teton National 
Park . . . We ask your support in accomplishing this acquisition for 
the benefit of the people of Wyoming and the United States.''
    The Department believes that S. 1105 demonstrates the value of 
reaching a broad based consensus on potentially challenging resource 
management questions between local parties, the State, and the federal 
government.
    We appreciate the committee's interest in this legislation and the 
efforts of the senators from Wyoming. This concludes my remarks. I 
would be happy to respond to any questions that you may have.

                                H.R. 640

    H.R. 640, a bill to adjust the boundaries of Santa Monica Mountains 
National Recreation Area.
    The Department supports H.R. 640. This legislation will adjust the 
authorized boundary of Santa Monica Mountains National Recreation Area 
to encompass an important wildlife corridor and provide for the 
protection of a key watershed. The legislation requires that 
acquisition of lands within the expansion area be accomplished only 
through donation, a provision that reflects the high level of 
cooperation and strong commitment of local communities and governments 
toward the park.
    Furthermore, in light of the President's commitment to reducing the 
backlog of deferred maintenance needs within the National Park System 
before incurring additional financial burdens, it is important to note 
that this legislation authorizes the lands within the boundary 
adjustment area to be acquired by donation only. Therefore, no public 
funds will be required for land acquisition. In addition, life cycle 
operational and maintenance costs are expected to be minimal. The park 
anticipates providing only minimal facilities such as trails, 
emphasizing habitat preservation for wildlife movement. Since no 
development is contemplated within the boundary adjustment area, no 
line item construction or related operational funding will be required.
    Within the 3,697-acre expansion zone, three parcels of land 
totaling about 2,800 acres are owned by the Santa Monica Mountains 
Conservancy, an agency of the California Resources Department that was 
established in 1981 to complement and assist with the establishment of 
the Santa Monica Mountains National Recreation Area. The three parcels 
are the 2,300-acre Las Virgenes Canyon Dedication, the 390-acre Liberty 
Canyon tract, and the 107-acre Abrams property. These lands are held by 
the Conservancy on behalf of local governments, principally the 
governments of Ventura County and Los Angeles County, and are slated to 
be donated to the National Park Service once they have been included 
within the authorized boundary of the recreation area. H.R. 640 adjusts 
the boundary in order to accomplish this purpose.
    Acquisition of these lands is important in order to protect 
critical habitat required for the free movement and migration of 
wildlife between the Santa Monica Mountains and the Simi Hills, thereby 
preventing local extinction of species in the park. Together with 
existing National Park Service lands, the three parcels form the only 
remaining wildlife corridor in the region to connect with national 
forest lands to the north.
    In addition, this legislation enables the protection of a 
significant portion of Upper Las Virgenes Creek, which is part of the 
Malibu Creek Watershed, the largest freshwater system within the 
recreation area. The quality and condition of this watershed is of 
critical concern because it drains into Santa Monica Bay. The beaches 
of Santa Monica Mountains National Recreation Area, surrounding the Bay 
and running west from the Santa Monica Pier for 45 miles along the 
Malibu coastline, are principally managed by the Los Angeles Department 
of Beaches and Harbors and the California State Parks. In all, this 
complex of beaches supports in excess of 30 million recreation visits 
annually, which suggests that it is one of the most valuable recreation 
assets in California.
    Within the existing boundary of Santa Monica Mountains National 
Recreation Area, some 70 governmental jurisdictions operate and work 
together. Unlike many park areas where lands within the authorized 
boundary are almost entirely in federal ownership, there exists an 
extremely complex mosaic of publicly and privately owned lands within 
the recreation area's boundary. The entire city of Malibu, as well as 
portions of the cities of Agoura Hills, Calabasas, Los Angeles, 
Thousand Oaks, and Westlake Village are within the current park 
boundaries. The National Park Service works cooperatively with other 
governments and private landowners, and shares its resource management 
knowledge with the local communities. The National Park Service, 
however, does not regulate land use on private or non-federal parklands 
within the park.
    In addition to the 2,800 acres that are owned by the Conservancy, 
approximately 900 acres of private and non-federal public lands are 
located within the expansion zone, including two neighborhoods that are 
situated within the cities of Agoura Hills and Calabasas. The two 
neighborhoods comprise roughly 330 acres. The two cities, as well as 
the homeowner associations representing the neighborhoods concerned, 
are longtime supporters of the park and this legislation. We understand 
that letters in support the boundary enlargement have been provided to 
the subcommittee from each of these governments and associations. Under 
the classification process used by the park, the neighborhoods are 
designated as ``developed areas,'' where the National Park Service will 
not acquire lands.
    There are also lands within the expansion zone under the 
jurisdiction of Los Angeles County that are largely undeveloped, or 
held by the county to support operations such as the Calabasas 
landfill. The legislation would permit the National Park Service to 
accept these lands, only by donation, if it were determined that they 
could further park purposes.
    Mr. Chairman, we are pleased to support this proposal. In all, the 
lands reserved through the efforts of local communities and governments 
for transfer to the National Park Service may be worth as much as $60 
million under current market conditions. The legislation before you 
today is a testament to the cooperation and commitment of the citizens, 
local governments, and the park agencies in the Santa Monica Mountains.
    That concludes my testimony. I would be glad to answer any 
questions that you or the members of the subcommittee may have.

    Senator Akaka. Thank you very much, Mr. Reynolds, for your 
testimony. It is well-received, and it will help us with our 
deliberations.
    I would like to begin a round of questions, and we may have 
additional rounds after this.
    Mr. Reynolds, I have a few questions for you. I would like 
to ask about S. 1057. That is the Pu'uhonua o Honaunau National 
Historical Park expansion. I thank you for your support for 
that. I understand an appraisal of the 238-acre Ki'ilae village 
parcel has been completed. Can you please provide the appraisal 
figure, and share with us any reactions from the owners of the 
property, and do you believe the appraisal figure accurately 
reflects the market value of property in the area?
    Mr. Reynolds. Mr. Chairman, it is my understanding that 
what we have is an estimate of current market value which has 
not yet been confirmed by a formal Federal appraisal. That 
estimate is $4,600,000. We will be glad to inform you as soon 
as we know of the approved Federal appraisal price, and if 
there are any differences. The local developer has been working 
very well with the National Park Service with this proposal, 
and the community, as I understand it, as this proposal has 
been put together.
    Senator Akaka. The possibility of expanding Pu'uhonua 
boundaries to include another parcel to the south has been 
suggested. This option would add approximately 800 acres to the 
park. Would you mind sharing your thoughts on this larger 
expansion?
    Mr. Reynolds. Yes, sir. The 800 acres includes the lands 
which are currently under consideration in this bill. The 
remainder of that 800 acres further to the south and adjacent 
may well have significant qualities related to the cultural 
resources of the Native Hawaiians, and I say may well because 
we have not yet completed any analysis or studies of what 
exists on those lands. We will be more than happy to get that 
information and of course pass it on to you and any others who 
are interested as soon as we know.
    Senator Akaka. Thank you. I would appreciate that.
    I am concerned that the best possible interpretation of the 
cultural sites and features, whether spiritual, agricultural, 
or other, be provided for the public in our national parks. 
Would you please explain how the Park Service works with 
cultural practitioners and people in the community who are 
resources for interpreting sites, and is there a specific plan 
to take advantage of such opportunities?
    Mr. Reynolds. Yes, I would be pleased to. The Park Service, 
probably within the last decade or decade and a half has become 
very much more aware and sensitized to the idea that the 
different cultures who were related to an individual piece of 
land and the remnant resources relating to their culture on 
that land are the ones who know most about how that should be 
preserved, protected, and interpreted, and the knowledge about 
it made available to the public, and so with that recognition, 
and I think it is particularly exemplary at Pu'uhonua, with 
that recognition we have joined--I almost hate to use the word 
partnership, because I think it has become stronger than that, 
with local cultural representatives to inform us and guide us 
in how to put together the interpretive programs and the 
cultural use programs that would exist within the park as we 
preserve those resources together for the future.
    In response to your question about, is there a specific 
plan, no, there is not a specific plan. I would only say there 
is a heartfelt commitment within the superintendent and the 
staff of that park to work directly with the rest of the 
community and let the plan evolve together with the community, 
rather than trying to impose some plan upon them, so from that 
point of view I suppose that is something of a plan, but it is 
not a step A, step B, step C kind of a plan.
    Senator Akaka. Thank you very much for your responses.
    Senator Thomas, do you have questions?
    Senator Thomas. Yes, a couple of questions.
    On S. 423, this legislation increases the limitation on 
acreage. Does it include the possibility of incorporating 
Station Camp?
    Mr. Reynolds. No, sir. It includes the authority to study 
whether or not Station Camp should be included.
    Senator Thomas. So if you should decide to include it, do 
you have to go back and get the authority?
    Mr. Reynolds. Yes, sir, that is correct.
    Senator Thomas. Do you envision additional boundary 
adjustments?
    Mr. Reynolds. Without benefit of a full study that is hard 
to say, but the evidence so far is pretty compelling that 
Station Camp is an extremely important part of this story.
    Senator Thomas. With regard to the Golden Gate National 
Recreation Area, I think the previous Congress authorized 
acquisition of 525 acres, at a cost of about $15 million. What 
is the progress on that acquisition?
    Mr. Reynolds. Sir, I will have to--well, Chris Powell might 
be able to help me with that question. If she cannot, I will 
have to provide that for you right away. I do know that at 
least one of the properties has been acquired, but I do not 
know about the other two. Chris, are you there? Is it okay, Mr. 
Chairman, to ask Chris to come up?
    Ms. Powell. Mr. Chairman, Mr. Reynolds was correct on that.
    Senator Akaka. Would you state your name?
    Ms. Powell. Oh, I am sorry. My name is Chris Powell. I am 
with the Golden Gate National Recreation Area, and as far as 
the status of the last boundary expansion, one of the 
properties has, indeed, been acquired, and is now managed by 
the Park Service, and the park is underway, talking with three 
of the owners of the other parcels that will be donated to the 
park, and looking at what we have to do to take those into 
management, so probably they will look to be managed by the 
park within the next year or so.
    Senator Thomas. As you look at the map, these are obviously 
very nice areas, beautiful areas, and much of it is State land. 
Why don't you let the State do most of the development in the 
park?
    Mr. Reynolds. Mr. Chairman, in fact on these lands there is 
virtually no development proposed, and in fact we are in a 
formal written partnership arrangement with the State to 
provide for the common visitor use of all of the lands within 
the Golden Gate, whether they be State or not, and as I said, 
in the lands under consideration both last year and this year, 
there is envisioned to be very little development, development 
being things like continuation of the maintenance of existing 
trails so people, hikers and bikers can use it.
    Senator Thomas. I understand. What I am saying, though, is 
in the overall scheme of things there is a limit to what the 
Park Service is going to be able to do, and when there is an 
instance where it could apparently be done just as well by the 
State, why is that not the emphasis?
    Mr. Reynolds. I believe what we have done in the case of 
the existing bill that we are talking about today is made a 
determination, and in consultation with the State, that these 
lands are of national significance, and this is the role of the 
Federal Government as part of the national recreation area.
    Senator Thomas. If you look at the map--have you looked at 
the map?
    Mr. Reynolds. Yes, sir.
    Senator Thomas. Kind of curious, national significance on 
all this? Really.
    Mr. Reynolds. I believe so, sir.
    Senator Thomas. You talked about the southern boundary, 
which is constantly moving. What about the northern boundary? I 
mentioned there is a 4-mile-long strip, where you have one park 
on one side and one on the other. Would it not make sense to 
make those both Point Reyes?
    Mr. Reynolds. I am personally very familiar with that 
situation, and last year, in fact, asked the same question 
myself within the staff and within the congressional 
delegation, and the conclusions that I came to were based on 
the history of how Point Reyes National Seashore and Golden 
Gate National Recreation Area came into being, and their direct 
relationship to Congressman Phil Burton's legacy, and as I 
began to get beyond the geography and into the history and the 
strong community feelings, particularly within the 
congressional delegation, that the form of Congressman Burton's 
legacy, one side being Point Reyes and the other side being 
Golden Gate, should be retained, and so I did not ask the Park 
Service to advance a formal recommendation to make that 
management switch.
    Senator Thomas. I guess I do not understand that. It is not 
called Burton, is it?
    Mr. Reynolds. No, sir, it is not.
    Senator Thomas. Well, what difference would it make whether 
it was managed by Point Reyes or managed by----
    Mr. Reynolds. I think to the visitor who did not know about 
Phil Burton, or did not learn of the interpretive programs 
about Phil Burton, probably they do not differentiate, but to 
those people who were associated with Phil Burton through the 
time that those two parks were created, I think it makes a very 
great difference.
    Senator Thomas. I am sorry, I do not understand that. I 
guess that is all right. The parks would still be there.
    Mr. Reynolds. Yes, they would, sir.
    Senator Thomas. We need to find a little efficiency 
sometimes, do we not?
    Mr. Reynolds. Well, I do not know if this will help you or 
not. As a matter of fact, Point Reyes National Seashore manages 
that part of Golden Gate to which you are referring.
    Senator Thomas. Good, then--all right. All right. Let's 
see, the other one that was kind of interesting was the Santa 
Monica boundary adjustment, here again, a real mixture of 
things, land ownership, of subdivisions in the State, Federal--
it is kind of--well, Conservation is an agency of the 
California Resource Department. Why do they not just keep the 
land?
    Mr. Reynolds. When Santa Monica Mountains National 
Recreation Area was created, and I spent 5 years there as 
assistant superintendent during the first 5 years, it was 
created by the Congress with the understanding that about half 
of the national recreation area would be managed by the State 
parks system, and those State parks generally existed at the 
time, although they have been added to since then, and that the 
Federal Government would create additional lands to be managed, 
and that those two ownerships would comprise about two-thirds 
of the land within the boundary of the national recreation 
area.
    The remaining third would always remain private, and would 
include the communities that were a part of the Santa Monica 
Mountains, and would include the opportunity for those 
communities to participate as a part of the conservation 
management within those boundaries, and so I have forgotten how 
many communities, but as I recall we dealt with approximately 
70 communities within the boundaries, and still do, and 
generally speaking those communities are very anxious to be 
retained within the boundary of the national recreation area.
    In the case of this legislation, the two communities 
affected have both expressed their positive interest in having 
the boundary expanded around them, and to include these 
wildlife corridor lands adjacent to them.
    Senator Thomas. Well, I appreciate your support on Grand 
Teton. Jack Neckels' highest priority has been to do something 
with the inholdings that were there.
    Mr. Reynolds. It sure is. He made that very clear to me.
    Senator Thomas. And he did not retire until after this bill 
was filed. Did you notice?
    [Laughter.]
    Mr. Reynolds. That was brought to my attention, sir.
    Senator Thomas. Thank you very much.
    Mr. Reynolds. Thank you, sir.
    Senator Akaka. Thank you for your questions. May I ask, 
Senator Smith, whether you would yield?
    Senator Smith. Yes, Mr. Chairman. I have no questions. I 
would love to yield any time I might have to Congressman Wu, 
who is an Oregon Congressman who represents the district in 
which Fort Clatsop is located.
    Senator Akaka. May I ask Mr. Reynolds to hold for a minute?
    Mr. Reynolds. Certainly, sir.
    Senator Akaka. I call Congressman Wu to the table.

        STATEMENT OF HON. DAVID WU, U.S. REPRESENTATIVE 
                          FROM OREGON

    Mr. Wu. Thank you very much, Senator.
    Senator Akaka. We welcome you and look forward to your 
testimony.
    Mr. Wu. Aloha, and thank you for having us here.
    Mr. Chairman, Senator Thomas, Senator Smith, thank you for 
this opportunity to testify on behalf of S. 423. Its provisions 
are bipartisan, bicameral, and I am here to speak only briefly 
in favor of expansion of the borders of Fort Clatsop Memorial. 
It, as you know, is the only national park facility dedicated 
solely to the Lewis & Clark expedition.
    Yesterday, by the way, was the 195th anniversary of the 
only physical mark left on the landscape by the Lewis & Clark 
expedition on the way back they carved into a cliff face in 
Yellowstone, near the Yellowstone River in Montana, I believe, 
the name of Sacagawea's son.
    There are all too few physical reminders of this great 
expedition, and I am very proud to work with Senator Smith, his 
counterpart, Senator Wyden, and my friend Brian Baird from the 
State of Washington on this important legislation to look at a 
couple of additional sites along the Lewis & Clark trail, and 
also, very importantly, to expand Fort Clatsop Memorial to 
include those access points that the expedition used to reach 
the Pacific Ocean,also to extract salt from the Pacific Ocean 
so that they could have enough salt for the trip back, and 
these are important historic sites.
    These are expansions which the local property owners have 
agreed to in principle, and I thank you for this opportunity to 
be with you today and to briefly mention this project of great 
importance to our State and to our Nation, and thank you for 
your courtesy, Senator Smith.
    [The prepared statement of Mr. Wu follows:]
  Prepared Statement of Hon. David Wu, U.S. Representative From Oregon
    Mr. Chairman, Senator Thomas and members of the subcommittee, thank 
you for giving me the opportunity to testify today about S. 423. I will 
make my remarks brief, as I know you have an aggressive agenda in front 
of you this afternoon.
    I would like to commend my Senators, Senator Wyden and Senator 
Gordon Smith, for introducing this bipartisan and important 
legislation. Yesterday, along with Congressman Brian Baird, and 
Congressman Mark Souder, I introduced the House version of S. 423, a 
bit different, but equally important.
    Mr. Chairman, as you know, S. 423 would expand the boundary of the 
Fort Clatsop National Memorial in my district in Oregon while studying 
the feasibility of including the Station Camp site in the state of 
Washington into the memorial. The bill that I introduced yesterday with 
Mr. Baird and Mr. Souder would also include studies of the feasibility 
of including the Megler Rest Area and Ft. Canby sites, also in 
Washington. Congress originally designated the fort and corresponding 
125 acres in 1958. It is the only part of the National Park System that 
is solely dedicated to the Meriwether Lewis and William Clark 
expedition. This legislation is needed to enlarge the boundary of Ft. 
Clatsop to incorporate the salt works and trail that will lead to the 
areas that members of the Corps of Discovery often used in their day-
to-day operations.
    To augment the expedition's low supply of salt due to their cross-
country expedition, Captains Lewis and Clark assigned members of the 
expedition to produce more of the commodity. During the winter of 1805-
06, as the Corps of Discovery wintered at the fort, a salt-making camp 
was set up about 15 miles southwest of Seaside, Oregon. Salt was 
obtained by boiling seawater in five large kettles and the crews were 
able to extract about three quarts a day. A total of four bushels were 
produced and three of these were carried eastward from Fort Clatsop 
when the expedition began its journey home.
    The original legislation, enacted in 1958, instructed the Park 
Service to include the trail from the fort to the salt works. This is 
the missing piece of the national Lewis and Clark Trail.
    Mr. Chairman, time is of the essence. There is broad public support 
in my District to get this bill passed and the trail completed before 
the beginning of the bicentennial celebration. Only by getting this 
legislation to the President's desk will we be able to prepare in time.
    The stakeholders are in agreement. The bill caps the acreage, there 
are appropriate buffer zones, and only willing sellers will sell to add 
to the memorial.
    In a little over two years, the bicentennial of the Lewis and Clark 
expedition will commence across the country. Communities such as 
Astoria and Seaside in my District must be prepared for the people that 
will trek to their areas to celebrate the bicentennial of the 
expedition. The time is now to pass the Ft. Clatsop Memorial Expansion 
Act. The visitors who will flock to my District will be able to share 
in what the members of the Corps of Discovery experienced almost two 
hundred years ago. It will be an amazing experience for thousands.
    I am pleased that the subcommittee is having a hearing on this 
legislation. I have worked very closely with the Clatsop County 
Commissioners and the landowners in Clatsop County to ensure that there 
is a consensus on the expansion. With hard work and many hours of 
discussion, we have reached this bipartisan and consensus bill.
    I welcome the subcommittee's questions and comments and look 
forward to working with all of you to get this bill signed into law as 
soon as possible.
    Thank you Mr. Chairman.

    Senator Akaka. Thank you very much, Congressman Wu, for 
your testimony. It will be helpful to us. Thank you.
    Mr. Wu. Thank you, Mr. Chairman.
    Senator Akaka. I know you are busy man. You may be excused. 
If you want to remain you can, too.
    Mr. Wu. I would love to stay, but thank you for your 
courtesies, and it is wonderful to be here, Mr. Chairman.
    Senator Akaka. Thank you. Now I would like to call--Senator 
Smith, do you have any questions?
    Senator Smith. No questions.
    Senator Akaka. Mr. Reynolds, I have an additional question 
for you. We have received several letters from some inholders 
in the Santa Monica Mountains National Recreation Area 
expressing concern about H.R. 640. Can you tell me what effect, 
if any, the expansion of the recreation area will have on 
existing inholders?
    Mr. Reynolds. Mr. Chairman, this bill will have no effect 
on any existing private lands within the boundary, with the 
exception of those that are authorized to be donated under this 
bill, and actually, as I recollect, none of the lands in this 
bill are presently in private ownership. If they--let's see, 
that may not be true with the Las Virgenes Watershed land at 
the far north, but that would be a corporation, not a private 
individual, and so the effect on any other landowner anywhere 
within the national recreation area would be no effect.
    Senator Akaka. Senator Thomas, do you have any further 
questions?
    Senator Thomas. No, sir, thank you.
    Senator Akaka. Mr. Reynolds, thank you very much for your 
testimony this afternoon. Many of the parks covered by these 
bills are in your region, and we look forward to working with 
you to ensure that they are successfully implemented. Thank you 
very much for being here.
    Mr. Reynolds. Mr. Chairman and Senator Thomas, thank you 
both very, very much.
    Senator Akaka. Our next panel is Mr. Jim Medeiros from 
Honaunau, Hawaii, Mr. Wayne Leslie from Kealakekua, Hawaii, Mr. 
Ron Arnold, the director of the Wyoming Office of State Lands 
and Investments from Cheyenne, Wyoming, and Ms. Audrey Rust, 
the president of the Peninsula Open Space Trust in Menlo Park, 
California.
    Before we hear from this panel, I would like to briefly 
introduce the two witnesses from Hawaii, and also to recognize 
Ms. Geri Bell, who is superintendent of Pu'uhonua o Honaunau 
National Historical Park. Thank you for being here.
    Mr. Jim Medeiros, Sr., is a descendant of the original 
families in Pu'uhonua o Honaunau. He was born and raised there 
and has knowledge of the practices, architecture, and meaning 
behind the structures and sites that exist today. He is a 
cultural practitioner who is learning and teaching the wisdom 
of those who came before, passed down to him by his kupuna, or 
elders. He is president of Protect Kaopuka Ohana, a community 
organization established for the preservation of the Hawaiian 
culture.
    Mr. Wayne Leslie is a fifth generation fisherman from 
Kealakekua Bay. He has vast knowledge about the natural 
environment, which is central to Hawaiian values. He has 
participated in community meetings regarding the expansion of 
Pu'uhonua o Honaunau, is a board member of Protect Kaopuka 
Ohana, and is active with the Hawaiian Island Burial Council, 
and I want to say Aloha, and welcome both of you to the 
committee.
    Mr. Leslie. Aloha.
    Senator Akaka. At this time, I would like to call on you 
for your testimonies, and may I ask first to hear the statement 
from Mr. Jim Medeiros.

          STATEMENT OF JIM MEDEIROS, SR., HONAUNAU, HI

    Mr. Medeiros. Thank you, Mr. Chairman, Senator Akaka, 
Senator Thomas, for this opportunity to speak before you on the 
acquisition of the Ki'ilae village. Ki'ilae village is a very 
special place. It is also a part of the Pu'uhonua o Honaunau. 
Upon reaching the safety of the Pu'uhonua o Honaunau, the City 
of Refuge, you will be blessed by the Kupuna, the priest, and 
then released into the village of Ki'ilae and Kauleoli, where 
you would be free in those areas, making Ki'ilae very much of a 
part of the Pu'uhonua in the olden times.
    Ki'ilae also is very special culturally. It is a part of an 
ancient subterranean water course that runs from the mountain 
to the sea. This water course was used by the ancient Hawaiians 
for aquaculture, for they would raise fish. Along this water 
course would be different outlets, and this fish would be 
raised there for times of high seas or kapu, when fishing was 
restricted in the ocean. It was also used for agriculture and 
for sustaining life. This same water course would lead into the 
ocean and percolate up into the front of the ocean, where 
schools of fish would be congregating.
    Also, Ki'ilae is home to hundreds of cultural sites, 
burials, sites of the queen's bath. Our ancient Hawaiian trail 
runs through this property. This property is so rich in culture 
and history If this development goes through it will surely 
destroy all of our sites. We have ancient sites called ahus. 
These ahus were stone formations that were built by the ancient 
Hawaiians and used as markers for our fishing grounds. We would 
line up with these markers from off-shore, and that is where we 
would locate our special different species of fish that we 
would catch, and we still use them today. We still practice our 
ancient cultural practices there.
    I am one of 1,200 living descendants of the Pu'uhonua who 
still practice there today. We gather medicines. We use woods 
there. We still use these ancient markers to fish. The 
acquisition of Ki'ilae would benefit not only the Hawaiian 
people and our culture, but would benefit all people for 
generations to come.
    Keeping our culture alive helps us to keep our Aloha spirit 
alive, which brings all the visitors to Hawaii, is the spirit 
of Aloha, and the spirit of Aloha will be kept by the children 
for future generations.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Madeiros follows:]

         Prepared Statement of Jim Medeiros, Sr., Honaunau, HI

    Aloha, my name is Jim Medeiros, Sr. My wife Jeana Kalani Kelekolio-
Pahukula Medeiros, my two sons, Jim Medeiros, Jr. and Jordan Medeiros, 
my parents, Clarence Mokuohai Puhalahua Medeiros and Pansy Wiwoole 
Kalalahua Medeiros are descendants of Pu'uhonua `O Honaunau and 
adjoining ahupua'a, including Ki'ilae. My wife and moms family are 
Lawai'a, fisherman that still fish these areas continuing our Hawaiian 
cultural practices.
    I thank you for this opportunity to share some history of Ki'ilae 
with you that was told and taught to me by my Kupuna (elders). In 
ancient Hawaii, Ki'ilae village was a part of Pu'uhonua `O Honaunau. 
After arriving at the safety of Pu'u honua `O Honaunau the Kahuna 
(priest) would perform the sacred rituals and release the pursued 
individual to the village of Ki'ilae and Kauleoli to live in freedom 
therefore, making Ki'ilae very much a part of Pu'uhonua `O Honaunau. 
Ki'ilae holds many irreplaceable cultural properties such as, a 
subterainian fresh water coarse that leads from the mountain to the 
ocean. In the old times, wai (water) was of great importance, for water 
was the giver of life. Ki'ilae village was a place where agriculture 
took place because of its dirt and water. My grandparents would grow 
their food there as did the people of Pu'uhonua `O Honaunau. 
Aquaculture was also a part of this special place where inland ponds 
were used and maintained by the people to raise mullet and other types 
of fish. These fish were harvested during the times when ocean fishing 
was kapu (restricted), or when high seas prevented fishing. There are 
hundreds of cultural sites, from the burials of my ohana as well as 
those of the people of Pu'uhonua `O Honaunau, Heiau's (sacred temples), 
ancient trails, queens bath, site of an old school and gathering of 
herbs for medicines of which the Hawaiian people of today still 
practice. Land marks called ahu were built out of stones that marked 
fishing grounds. From the ocean we line up with ancient ahu's to catch 
different varieties of fish. We continue this practice today.
    The acquisition of Ki'ilea by the National Park service will 
benefit not only the Hawaiian people and culture, but will also benefit 
all peoples for generations to come. Only through the preservation of 
the Hawaiian culture can the Hawaiian people be Hawaiian and perpetuate 
the aloha spirit that lives today. What makes Hawaii such a special 
place is the spirit of aloha. The children will be the keepers of the 
aloha spirit so it can continue to be felt by all who come to Hawaii.
    The acquisition of Ki'ilae by the National Park service will save 
it from the destruction of a planned development of a private gated 
community that has benefit only to the rich. The destruction of culture 
is inevitable once construction begins. The lands of South Kona Hawaii, 
except for a few beach roads, are culturally fully developed, virgin 
lands that have never been disturbed by heavy equiptment. These lands 
were not destroyed by industry like sugar and ranching. Culture is 
still intact for furture generations.
    We thank the National Park service for preserving the Hawaiian 
culture so the aloha spirit can live on and be shared by all the people 
of the future. I represent the thousands of Hawaiians that came before 
me, and the generations to come. I am one of twelve hundred descendants 
of Pu'uhonua `O Honaunau, President of Protect Keopuka `Ohana, a 
community organization made up of cultural practitioners,and 
environmental protectors established for the preservation of the 
Hawaiian culture through the education of all people on the culture and 
history of the Hawaiian people.

    Senator Akaka. Thank you very much for your testimony.
    Mr. Wayne Leslie.

           STATEMENT OF WAYNE LESLIE, KEALAKEKUA, HI

    Mr. Leslie. Thank you, Senator Akaka, for inviting us here. 
It is encouraging, coming this long distance, to sit before an 
important body, and is most enriching to sit before you, my 
kapuna from Hawaii. I am very honored to be here.
    Va mauke'eao ka'aina Ika pono is the motto for Hawaii, and 
that is translated as, the life of the land is perpetuated in 
righteousness. S. 1057 is a perpetuation of righteousness. It 
ensures the life of the land, and the spirit of Aloha, which 
everyone, Hawaiian and non-Hawaiians, depend on for the 
goodness and the purity of love and respect between one another 
in Hawaii.
    From the year 1800 to the year 1850, 90 percent of the 
Hawaiian population was wiped out from disease and viral 
infections from European travelers. 90 percent of our 
population wiped out. 90 percent of our history can never be 
shared. By opening the boundaries of the park to encompass 
these lands at Ki'ilae, it is like the opening arms of a loving 
mother welcoming back her lost children.
    It is the ancient sites of the physical evidence of our 
people, and it is not only for its interpretive values to the 
world, but its value as a cultural identity to the Hawaiian 
people is priceless. As a Native practitioner, I recognize that 
these lands were walked by the people of long ago who are from 
my lineage.
    When we practice our Native arts, we recognize that we walk 
in the footsteps of our ancestors, and that is the endeavor and 
aspirations of all Native Hawaiians, is to live the life of 
yesterday, and to bring it forth for tomorrow's people to 
enjoy, and I commend you for proposing this bill that will make 
tomorrow a better place for us all.
    Hawaii is a jewel of the Pacific. As you know, it is the 
Piko of the Pacific, and it is a natural resource that is 
invaluable. When the Native Hawaiians first traveled, my 
ancestors, from Kahiki to Hawaii, they knew that as they 
traveled these long distances on their voyaging canoes in order 
to be fruitful and to be successful on their voyage they needed 
to make the most of their natural resources, and their limited 
space, and the limited resources that their voyaging canoes 
afforded them.
    We apply this aspect of survival today in modern life, 
calling our islands our canoes. The Island of Hawaii is my 
island canoe, and we are all crew members of this island canoe, 
and in order to survive our journey we need to make the most of 
our limited space and limited resources that our island affords 
us.
    This bill will help to ensure the life of the land. It will 
help to ensure that my children will never pose to me the 
question, Daddy, who am I, where do I come from? As Native 
practitioners, to walk in the footsteps of our ancestors is our 
deepest aspiration.
    I am honored to be here, and I bring with me my kapuna and 
my kamalii, my elders and my children. My kapuna I owe a debt 
to for coming here, for giving me a sense of purpose, and 
giving me the direction. The same with my kamalii, my children, 
who have changed my perspective.
    Since my first child was born, it really gave me a sense of 
purpose to protect the natural resources so they may identify 
themselves as kanaka maoli, Native Hawaiians, and their 
children may also. As my kapuna has protected the natural 
resources so I may walk in their footsteps, it is my cultural 
obligation and inherent duty, as the kanaka maoli, to provide 
those natural resources so that my children may walk in my 
footsteps, and as leaders, and changers of the Nation, you, our 
elected officials, walk a path that the future leaders will 
choose to walk.
    As Native practitioners, we consider ourselves the keepers 
of the flame, and the people like you who help to protect us 
are also keepers of the flame. This flame lights the path that 
leads to spiritual, environmental, and cultural righteousness. 
(Hawaiian spoken) to you for inviting us here. Thank you for 
letting me give my testimony.
    [The prepared statement of Mr. Leslie follows:]

           Prepared Statement of Wayne Leslie, Kealakekua, HI

    Ua mau ke'ea o ka'aina I ka pono.
    The life of the land is perpetuated through its righteousness. This 
is the motto of Hawaii. This Senate bill 1057 is a perpetuation of 
righteousness and ensures the life of the land and you are to be 
commended for this endeavor which is the epitome of what is pono. Pono 
is a Hawaiian expression for that which is true and just and is the way 
of life for the people of Hawaiian culture; the environmental stewards 
of the aina. Aina is translated as that which gives you sustenance; 
physically, mentally and spiritually. We the people of Hawaii are the 
stewards of the aina, and you, our elected officials, are the stewards 
of the stewards.
    Senate bill 1057 is a testament to your open hearts and minds; to 
the importance of preserving our ancient sites and cultural resources 
for all of tomorrow's people to experience and share with the world. 
Ultimately we would like to see all of the lands abutting the national 
park to be acquired for protection and we see this Senate bill as a 
step in the [pono]direction. These lands are full of historic sites and 
structures, some of which were used for agriculture,some were dwellings 
or used for periodical habitation, and many of them are temples for 
prayer and burial sites. To others these sites are piles of rock and 
rubble with little importance. To the native populace, these sites are 
the physical evidence of our peoples existence and a testament to their 
perseverance and willingness to make the most of what little resources 
they had. These sites are our anchors to the past and helps us to 
culturally connect to a time almost forgotten. This connection enables 
us to move forward with a greater understanding of who we are and where 
we come from. When we look upon these sites we see our ancestors of 
long ago gathered around and going about their daily routines, such as 
praying, farming and living the lifestyles of ancient Polynesia. When 
we touch these sites we feel the [mana] spiritual energy of our people 
and know that these stones were placed here by native Hawaiians (like 
myself) dressed in traditional attire and having a mindset of living in 
harmony with their resources and coexisting with the aina through a 
symbiotic relationship with the natural order of Hawaiian living. Also 
fronting these lands are ancient [koa] which are ancient fields of the 
sea which are maintained and harvested by lawai'a expert fisherman, 
which is my lineage.
    Senate bill 1057 helps to ensure no effluents from any proposed 
developments will pollute these fishing grounds which we desperately 
depend on to feed our families and perpetuate our cultural identity. 
When we travel the ocean to practice our nautical arts, which were 
passed down from our ancestors, we recognize the fact that these 
ancestors traversed the same waters, under the same stars and with the 
same aspirations 1000 years ago. When we harvest from these koa, we 
recognize the fact that these fish are descended from the fish our 
ancestors harvested with the same aspirations 1000 years ago. All 
aspects of cultural perpetuation are our means of walking in the 
footsteps of our ancestors and identifying ourselves on a cultural 
level. These cultural practices tell not only the stories of what we do 
but more importantly who we are! These priceless memories and gifts of 
cultural enrichment afforded to me by my ancestors can best be repaid 
by ensuring a viable resource for tomorrow's people so that they are 
afforded the same opportunity to walk in our footsteps.
    When my Tahitian ancestors set forth on their voyages of discovery 
they knew that in order to succeed in their journeys they needed to 
make the most of their limited space and resources their voyaging 
canoes could afford. This understanding of survival is applied today 
with our islands being our canoes. As island residents and political 
officials we are all crew members of our island canoes. To misuse our 
limited space and resources will inevitably result in the sinking of 
our canoe and we will all surely perish.
    Prior to European contact with Captain Cook, in the year 1779, 
Hawaii's environment was so pure not even the common cold of today 
existed. Between the years 1800 and 1850, 90% of Hawaii's population 
was wiped out by disease and viral infections passed on to them from 
the vast numbers of European travelers coming to our shores. Having no 
immune system to protect them from disease, the native Hawaiians were 
almost totally wiped out. Ancient Hawaiian culture dictates that our 
history and genealogy are passed on through the ancient arts of: hula, 
chants, and song which are only passed onto direct family members. This 
decimation of the Hawaiian populace by disease, which killed people of 
all ages, left the elders with no one to pass their history on to and 
left the native youth with no one to pass onto them their history and 
the stories of our evolution. We the generation of today are on a 
voyage of rediscovery and aspire to reconnect all our people to their 
roots and culture.
    As practitioners of Hawaiian culture it is our inherent obligation 
to advocate cultural preservation and protect all the essentials needed 
to fully experience the ways of old and modern Hawaii. With a heartfelt 
mahalo we thank you for the time and effort invested in this Senate 
bill. You have reinstalled in us that this is a government of the 
people, by the people, for the people; and by being proactive in a pono 
manner, we can still make a difference!
    Ua mau ke'ea o ka'aina I ka pono.

    Senator Akaka. Thank you for your statement, and at this 
time I would like to call on Ron Arnold, who is the director of 
the Wyoming Office of State Lands and Investments from 
Cheyenne.
    Senator Thomas. Yes, Mr. Chairman, I would like to welcome 
Ron here. He is director of State Lands and Investments and 
therefore, of course, is very involved in State lands, school 
lands in particular, which is what we are talking about here. 
He has been in the Attorney General's Office and served Wyoming 
for a long time. I welcome you here, sir.

  STATEMENT OF RON ARNOLD, DIRECTOR, WYOMING OFFICE OF STATE 
              LANDS AND INVESTMENTS, CHEYENNE, WY

    Mr. Arnold. Thank you. Good afternoon. For the record, my 
name is Ron Arnold, and I want to thank you, Mr. Chairman 
Akaka, and Senator Thomas for affording the State of Wyoming 
this opportunity to comment on Senator Thomas' bill, S. 1105. 
This has been a long time in coming, and we do appreciate the 
efforts of Senator Thomas in introducing this particular bill.
    I would ask that my prepared remarks be made a part of the 
record, and I did attach to those remarks, Mr. Chairman, a 
small map. Just for ease of all the members of the committee, 
on this particular map are the three areas of just the surface 
acres only. It does not identify approximately the 40 acres of 
the mineral interest. The 40 acres are also contained on the 
large map that you have, but for the sake of reference point, 
the mineral interests, Mr. Chairman, are approximately 10 miles 
north of section 16 on this small map, so it would be up here 
and a little bit to the East, so we did not want to mislead the 
committee in that regard, Mr. Chairman.
    Senator Akaka. Your full statement will be placed.
    Mr. Arnold. Thank you, Mr. Chairman.
    I am appearing here today on behalf of the Board of Land 
Commissioners of the State of Wyoming. The Board of Land 
Commissioners is comprised of the five elected officials, 
Governor Jim Geringer, we have Secretary of State Joe Meyer, 
State Treasurer Cynthia Lummis, State Auditor Max Maxfield, and 
the Superintendent of Public Instruction, Judy Catchpole.
    This is the body, Mr. Chairman, in Wyoming that has a duty 
and a responsibility to make the trustlands. For your purposes, 
Mr. Chairman, the lands contained within Grand Teton National 
Park are those trustlands that were given to the State of 
Wyoming when Wyoming was admitted in 1890, and Congress 
specifically intended not only the State of Wyoming but all 
other States to take those particular trustlands and manage 
them for the benefit of the common schools, so each State, 
including Wyoming, had a fiduciary responsibility, the same as 
a private fiduciary, in managing the trust for the 
beneficiaries, which is the common schools.
    I am sure most of you have had an opportunity to either 
visit this part of the State, which is in the western part of 
Wyoming. Jackson, the town of Jackson is immediately to the 
south of Grand Teton National Park, a very, very beautiful 
area. We do have millions of worldwide travelers, tourists that 
come not only to Grand Teton National Park, but also go to 
Yellowstone National Park.
    We have this obligation to manage the trustlands in the 
State for the maximum benefit of these schools. In this 
particular part of the State presently land values are 
escalating, and presently we have two grazing leases for these 
two sections of land, and the annual income from these two 
particular sections are approximately $2,000 a year.
    We know that probably the highest and best use for this 
particular property would be either commercial or industrial, 
but we do not believe that is in the best interest of either 
the State of Wyoming, nor is it in the best interest of the 
Federal Government to do any sort of development in this 
particular area. This is pristine area. It is undeveloped. It 
is next to the Snake River. It has beautiful scenic value. It 
has crucial wildlife habitat, and it is contained entirely 
within Grand Teton National Park.
    As a practical matter it is just not wise to have a 
checkerboard situation where you have different governing 
bodies that would have to manage these lands in their own 
particular missions and goals, and have to jump over other 
parcels that are not owned by them. We feel that we would like 
to sort of partner with the Federal Government so that they can 
obtain these particular lands.
    The National Park Service then would have the complete 
block of lands within Grand Teton National Park to manage, and 
practically that is the best thing for that particular area, 
for the wildlife, for the tourists, and it fulfills the mission 
of the National Park Service.
    In that regard, Mr. Chairman, we are in full support of 
Senator Thomas' bill, S. 1105. We applaud Senator Thomas, 
because we believe that this is just an ideal time for the 
State of Wyoming to give up these lands and have the Federal 
Government acquire these lands. It still remains public.
    We have not seen any opposition in our State to this 
particular bill because the members of the public will still 
continue to have the access to these lands the same way as they 
do now, and it helps tremendously the trust responsibility for 
the Board of Land Commissioners to maximize that benefit to the 
schoolchildren, so we are in full support, and we would ask 
that this bill go forward.
    I would be happy to answer any questions that you may have, 
Mr. Chairman.
    [The prepared statement of Mr. Arnold follows:]

  Prepared Statement of Ron Arnold, Director, Wyoming Office of State 
                  Lands and Investments, Cheyenne, WY

    Thank you Mr. Chairman, for affording the great State of Wyoming an 
opportunity to comment on the proposed exchange of its trust lands 
within Grand Teton National Park to the federal government. I am 
appearing here today on behalf of the Wyoming Board of Land 
Commissioners which is comprised of Governor Jim Geringer, Secretary of 
State Joe Meyer, State Treasurer Cynthia Lummis, State Auditor Max 
Maxfield and Superintendent of Public Instruction Judy Catchpole.

                           STATE TRUST LANDS

    The lands proposed to be exchanged are those trust lands originally 
granted to the State of Wyoming by the federal government upon 
admission to the United States in 1890. These land grants generally 
comprise section 16 and 36 in every township and were specifically 
granted to the states for the support of the common schools as states 
were admitted to the Union. In Wyoming, trust lands total 3.6 million 
surface acres and 4.2 million mineral acres.
    The Wyoming Constitution, adopted in 1890, recognizes the trust 
obligations imposed by Congress in managing the land grants which are 
to preserve and protect the lands, manage the lands for the benefit of 
the beneficiaries of the trust and create a permanent fund of proceeds 
of trust land sales and mineral production, the income from which is to 
be annually distributed to Wyoming public schools.
    Article 18, Section 3, Wyoming Constitution, provides that the five 
state elected officials constitute a board of land commissioners, 
trustees of the land grant, ``which under the direction of the 
legislature . . . shall have direction, control, leasing and disposal 
of the lands . . . for the support and benefit of public schools . . 
.'' The trust obligation of the five elected state officials is to 
prudently enhance value and generate a reasonable annual income for the 
support of Wyoming public schools. Annually, state land activities and 
investments generate approximately $42 million.

              STATE'S REASONS FOR SUPPORTING THE EXCHANGE

    Wyoming supports the exchange as proposed in Senator Thomas' bill 
1105 because the bill allows Wyoming to achieve its responsibility to 
maximize the benefit to the school trust while maintaining the mission 
of the park service and meeting the demands of the National public in 
keeping the parks undeveloped. The bill is successful in making all 
goals compatible.

                       GRAND TETON NATIONAL PARK

    In 1929, Congress established Grand Teton National Park and 
expanded the Park's boundaries in 1950. This expansion encompassed 
Wyoming's trust lands which are being considered by you in the proposed 
exchange. In other words, establishment and expansion of Grand Teton 
National Park created State Land in-holdings. Reasonably, the 
continuing management theme for Grand Teton National Park is 
preservation of natural resources for the greatest good of the 
countryside as a public park for the benefit and enjoyment of the 
American people. Wyoming's Congressional and constitutional trust 
obligation to the beneficiaries of the public school trust, created in 
1890, became impossible once the lands became encompassed within Grand 
Teton National Park in part because of federally restricted access, 
development limitations and land protection plans implemented by the 
National Park Service.
    In summary, the management trust obligations for Wyoming public 
schools imposed upon the Wyoming Board of Land Commissioners by 
Congress and by the Wyoming Constitution for school trust lands in 1890 
are realistically unable to be met due to subsequent Congressional Acts 
creating Grand Teton National Park and National Forests.

 SENATOR THOMAS' BILL--S. 1105 GRAND TETON NATIONAL PARK LAND EXCHANGE 
                                  ACT

    To be considered in Senator Thomas' bill, S. 1105, are 
approximately 1,366 surface acres of land, and 40 acres of minerals. 
The surface acres consist of breathtaking mountains, vistas, Snake 
River frontage and crucial wildlife habitat. These lands and minerals 
are undeveloped and are totally contained within Grand Teton National 
Park. Presently, the only revenue derived from these lands is from two 
grazing leases which produce approximately $2,000 annually.
    Grand Teton National Park is located in the far western part of 
Wyoming, in Teton County. It is the gateway to Yellowstone National 
Park and attracts worldwide tourists. It harbors an abundance of 
diverse wildlife species and has unrivaled scenic beauty. The town of 
Jackson is located a few miles south of the current Park boundary. 
Residential development is spreading ever closer to the Park boundaries 
and interest in developing the state lands for residential and 
commercial uses is growing. Presently, land values in Teton County are 
very high and Wyoming cannot satisfy its trust responsibility to earn a 
reasonable return for the public school beneficiaries of the trust with 
the present status of its in holdings in Grand Teton National Park. The 
State of Wyoming should not be forced into a situation that would 
substantially increase revenues for the public school beneficiaries of 
the land trust, as contemplated by Congress in 1890, but in so doing 
would adversely change the character of the land within or adjacent to 
the Grand Teton National Park as contemplated by subsequent members of 
Congress. An exchange to the federal government of this state trust 
land provides the greatest return to the Wyoming school trust while 
protecting the integrity of the Park.
    Wyoming believes the proposed exchange would benefit not only the 
school trust but would benefit the federal government and all United 
States citizens. By acquiring these trust lands, the National Park 
Service could implement efficient and consistent management practices 
and policy for all of the public land within the park boundary.
    Senator Thomas' proposed bill gives both the State of Wyoming and 
the federal government an opportunity to help the school children in 
Wyoming financially while keeping the lands within Grand Teton National 
Park public and pristine. This certainly is a win/win situation for 
both governments. The proposed bill will allow the trust lands to 
remain accessible by members of the public and will place control and 
jurisdiction with the federal government where it practically belongs. 
Most importantly, the exchange fulfills Congress's intent for Wyoming 
to utilize these trust lands for the support of its schools.
    Mr. Chairman, thank you for the opportunity to share these thoughts 
with you today. I would be pleased to answer any questions you may 
have.

    Senator Akaka. Thank you. Thank you for your testimony.
    Audrey Rust is president of Peninsula Open Space Trust, 
Menlo Park, California.

 STATEMENT OF AUDREY C. RUST, PRESIDENT, PENINSULA OPEN SPACE 
                     TRUST, MENLO PARK, CA

    Ms. Rust. Good afternoon. Thank you for inviting me. My 
name is Audrey Rust. I am the president of the Peninsula Open 
Space Trust, and I appreciate the opportunity, Mr. Chairman and 
Senator Thomas, to come here today and talk about S. 941.
    I think you have received copies of this packet that we put 
together, and the cover photograph shows you the dramatic 
terrain, and you get a sense of what you might get, sweeping 
views, looking at the photos inside the packet, but I think I 
am talking to two gentlemen who know more about dramatic views 
and sweeping vistas than most people in the country, given the 
States that you come from.
    It is a property with incredible biological diversity. It 
has four watersheds with four year-round creeks that support 
wildlife that is both diverse and federally listed. It has five 
different plants that are federally listed, of which two grow 
only on Montara Mountain, nowhere else in the world, but that 
is not just the amazing part of this property. The real amazing 
part is that it was still available, because it is only 10 
miles from San Francisco.
    It is in an area that has incredibly dense urban 
development, and where real estate prices have gone up 
astronomically. Anyone who has visited the San Francisco Bay 
Area is aware of that fact.
    We began negotiating on this property over a year ago, my 
organization, which is a nonprofit, at a time when the property 
was listed at $52 million. We finally reached agreement with 
the landowners after a year for a price of $29,750,000, and we 
took that risk, and we undertook a contract, we even purchased 
a small portion of the property, because we think this is so 
important to add to the National Park System.
    Today, we are talking about a boundary extension which 
would include some 5,000 acres. Later, if we are successful 
here, and I hope we will be, we will be looking for an 
appropriation. At that time, we are looking for an 
appropriation for $15 million, half of what the cost of one of 
those properties would be.
    I am hoping that you will give your support today. The 
people of the bay area are more than just enthusiastic 
supporters of the GGNRA. Over the years, we have put millions 
of dollars of private money into both acquisition and 
improvements of the GGNRA, and we expect that we will continue 
to do that into the future.
    Thank you very much for your time, and I am here for any 
questions.
    [The prepared statement of Ms. Rust follows:]

 Prepared Statement of Audrey C. Rust, President, Peninsula Open Space 
                         Trust, Menlo Park, CA

    Mr. Chairman, Members of the Committee:
    Thank you for inviting me to meet with you today to request your 
support of S. 941, which extends the southwest boundary of the Golden 
Gate National Recreation Area (GGNRA) to encompass the 4,200-acre 
Rancho Corral de Tierra property and some additional 800 acres of land 
located in coastal San Mateo County, California. The availability of 
this much national park quality land in a metropolitan area that has 
seen and continues to experience intense urban growth represents a rare 
opportunity.
    My name is Audrey Rust. I am the president of the Peninsula Open 
Space Trust (POST), a nonprofit land trust, located in Menlo Park, 
California. POST is the current owner and option holder of the 4,200-
acre Rancho Corral de Tierra property under consideration by this 
committee today. Our organization works in partnership with public 
agencies and private citizens to create parks and to give permanent 
protection to open lands in San Mateo and Santa Clara Counties in 
California. Since our founding 24 years ago, we have participated in 
saving over 45,000 acres of wetlands, forest, grassland, beaches and 
farmland.
    With the assistance of the federal government, POST has added the 
Phleger Estate to the GGNRA as well as Bair Island and other wetlands 
to the Don Edwards National Wildlife Refuge. Our projects have brought 
together local, state and federal agencies and have had substantial 
participation by the private donor community.
    The bill before you today is a critical step in achieving a long-
held goal to place this dramatic and strategically important property 
into the ownership of the National Park Service. The passage of S. 941 
will make possible federal ownership of the unique lands of Montara 
Mountain, creating a highly visible and dramatic entrance to the park 
along the Pacific coast, protecting significant ecological resources 
and linking tens of thousands of acres of existing federal, state, and 
county parklands.
    The 4,200 acres of Rancho Corral de Tierra encompass a nearly 
intact 1839 Mexican land grant, named Corral de Tierra-Palomares. It is 
adjacent on the north and east sides to other GGNRA lands, most notably 
the 23,000-acre San Francisco Watershed lands over which the National 
Park Service holds a protective easement, and to the north McNee Ranch 
State Park (780 acres) and San Mateo County San Pedro Valley Park (978 
acres), with further linkages to the GGNRA.
    The lands proposed for annexation offer an unparalleled scenic 
addition to the park. The ascent of Montara Mountain from the sea to 
nearly 2,000 feet is a striking sight. The coastal ridge-tops provide 
some of the most spectacular panoramic views to be found in northern 
California, sweeping from the San Francisco Bay and the East Bay hills, 
past the Point Reyes peninsula and Farralone Islands to Pescadero 
Point--65 miles from north to south as the crow flies. The peaks of 
Montara Mountain dominate the setting of this part of the GGNRA.
    The properties contain four coastal creeks with runs of federally-
listed threatened steelhead trout, and possibly coho salmon as well. 
The riparian areas serve as habitat for the threatened California red-
legged frog and San Francisco garter snake, provide a vital source of 
water, increased cover, feeding and nesting opportunities and migration 
corridors for the abundant wildlife in the area. Other species of 
concern that inhabit the properties are Cooper's hawk, the dusky-footed 
woodrat, California brown pelican, common murre, and the San Bruno 
elfin butterfly. Bobcat, brush rabbits, kestrels, California quail, 
several species of hawk, mountain lions and eagles are among dozens of 
other wildlife species found on the property.
    Due to the topography, climate and natural condition of the site, 
plant assemblages of Montara Mountain are considered by biologists to 
be genuinely unique, displaying plants, soils and exposures found 
together nowhere else on earth. Seven plants on site are included in 
the California Native Plant Society's inventory of species of 
particular concern. Two of these plants, the Montara manzanita 
(Arctostaphylos montaraensis) and Montara blue lupine (Lupinus 
eximius), are found nowhere in the world other than Montara Mountain 
and are federally listed. Three other federally listed rare and 
endangered plant species have been identified: coast rock cress (Arabis 
blepharophylla), San Francisco wallflower (Erysimum franciscanum) and 
Hickman's cinquefoil (Potentilla hickmanii).
    The boundary study undertaken by Peninsula Open Space Trust and 
prepared in conjunction with the National Park Service found that 
acquisition of these properties will not impose a significant new 
management burden on the National Park Service. Principal management 
requirements would include trail maintenance, fire management and other 
natural resource management measures already carried out in nearby 
areas of the park. In addition, the proposed park expansion would 
benefit the recovery of species within the area and benefit populations 
existing on adjacent lands already within the GGNRA. Further, 
preservation of these properties will contribute significantly to the 
effectiveness of ecosystem management in the area, avoiding the 
problems that so often plague other park sites where important 
components of park ecosystems are outside of park control.
    Inclusion of these lands in the GGNRA is endorsed by numerous 
groups and public officials. At the recently held well-attended public 
hearing in Half Moon Bay, every speaker was in favor of this addition. 
Elected officials, representatives of the Farm Bureau, equestrian 
groups, neighbors and environmental groups unanimously applauded the 
project. No one voiced opposition at the hearing.
    This project continues to demonstrate the kind of public-private 
partnership that has led to so much success in land conservation on the 
San Francisco Peninsula. If Congress approves the boundary extension, 
and later an appropriation for the purchase of the Rancho Corral de 
Tierra property, POST has committed to raise $15,000,000 in local and 
state funds to match the $15,000,000 needed in federal funds. With this 
partnership the purchase of this significant and valuable property is 
also a real bargain for the Park Service.
    I ask for your support of S. 941.

    Senator Akaka. Thank you very much for your testimony, and 
I have some questions here. First, I want to say thank you very 
much, Mr. Medeiros, for coming all the way from Hawaii. I 
appreciated hearing your description of the area and its 
meaning to families and people there that have lived in 
Honaunau for generations.
    My question to you is, would you be able to provide a 
general picture of the level of support for expansion of the 
park among Native Hawaiians in particular? What is the general 
feeling about the expansion of the park to include the Ki'ilae 
village area?
    Mr. Medeiros. Yes, Mr. Chairman. We have great support for 
the acquisition of the Ki'ilae area from the Hawaiian community 
and our community general. We have over 1,000 supporters in our 
community who support what we are doing and what your bill will 
do, and all we can say is, we are really grateful for this 
acquisition. It will save us. It will enable our children to 
continue to be Hawaiian, and use these areas, and also benefit 
everyone with the Pu'uhonua. It has great value to everyone. We 
have a lot of support.
    Senator Akaka. Would you please share with us what makes 
Ki'ilae village and the adjacent parcels so significant, and 
would make them good additions to Pu'uhonua o Honaunau?
    Mr. Medeiros. Yes, Mr. Chairman. The Ki'ilae ahupua'a is a 
virgin ahupua'a. I call it virgin lands because it has never 
been disturbed by heavy equipment. Industry like sugar and 
ranching has never destroyed these lands. These lands are 
culturally fully developed. Within these lands are just 
cultural sites in the hundreds, burials, different water 
systems--it is such a valuable piece of property. Saving it 
will save South Corner from being destroyed.
    Senator Akaka. Mr. Leslie, I understand that you 
participated in community meetings that were held by the Park 
Service last fall to discuss the potential expansion with 
residents. Would you please describe whether the support for 
the expansion is widespread on the Island of Hawaii? Is there 
support among interested in parties such as local businesses 
and tourism firms, homeowners nearby, and other property 
owners?
    Mr. Leslie. Yes, Mr. Chairman, there is unanimous support 
by the populace of the Hawaii Island, Native and non-Native 
alike. To expand the boundaries of the national park makes 
available to the general public and to the Native Hawaiians 
access for interpretation and access for cultural 
identification, which is crucial to the Native Hawaiians, to 
identify ourselves as kanaka. These are the physical, the 
evidence of our people.
    Through these lands also cross what are called the 
alakahakai, which is an ancient trail used by Native Hawaiians 
to travel through each ahupua'a, or section of land, to access 
shoreline for subsistence gathering and mostly important 
subsistence gathering for the young and for the old, because 
they cannot gather for themselves, and this is one of the only 
means of protein for the Native Hawaiian people, so this 
ancient trail is an integral part of our culture, and 
encompasses all of these lands.
    As Mr. Medeiros said, from a cultural perspective these 
lands are fully developed. Anything else would be a degradation 
to the sanctity and to the spirituality of these ahupua'a.
    Senator Akaka. Senator Thomas, would you have any questions 
for the witnesses?
    Senator Thomas. Just a couple.
    Ms. Rust, do you foresee additional acquisitions, or 
additional expansion of the Golden Gate Recreation Area?
    Ms. Rust. Of course, I represent a private nonprofit land 
trust, and I do not have any control in general over what the 
GGNRA would do, and I ought to clarify that our organization 
works south of San Francisco, and the GGNRA, of course, 
stretches to the north as well.
    Within our area, this is the major, most important 
property. Should there be a really important and good 
opportunity in the future with adjacent lands that looked and 
were measured to be of national significance, I might come back 
again, yes.
    Senator Thomas. I would not be surprised, actually.
    Ms. Rust. But I must say, it is not a frequent occurrence 
with us. We work mostly locally with private landowners.
    Senator Thomas. I admire very much your doing what you are 
doing. I just point out again that there are a number of 
options in terms of easements, in terms of State lands.
    Ms. Rust. Yes, I recognize that. When we began the process 
of looking at this we conferred with the Park Service and asked 
if we helped to pay for a boundary study at our expense, but to 
their standards and with a person they would choose, would that 
be a way to really identify if we were going in the right 
direction, and they suggested that was a good idea, which we 
did.
    That boundary study did identify the lands being of 
national park quality. It also identified the fact that it was 
unlikely that any local management would be able to hold the 
standards that the national park would on this property.
    Additionally, it is--although I feel I am singing to the 
choir on this--very scenic, dramatic property, and lends an 
incredible southern entrance into the GGNRA which is currently 
not in existence.
    Thirdly, the land is adjacent to 23,000 acres over which 
the Park Service has an easement, and it is a very important 
part of the migration pattern of animals from those 23,000 
acres over the hill to the west-facing slopes of this very 
large property, and therefore helps to protect some of the 
resources that the park is protecting on the other side.
    Senator Thomas. Just, Mr. Chairman, a comment, I want to 
say again how much I appreciate Mr. Arnold being here. Teton 
Park is one of the most interesting places established back in 
1929. It was then expanded, and was made a national monument by 
Theodore Roosevelt. As late as 1950 was made part of the park, 
and therefore these inholdings were already there.
    One of the interesting things on the map is that the white 
area around Phelps Lake is the Rockefeller Ranch, and they were 
the ones, of course, who put most of this together, and they 
are in the process of dedicating that back to the park as well. 
So that inholding will be out of there. The whole park is about 
300,000 acres. This 1,400 acres we are talking about would be a 
move towards getting the inholdings and then allowing the State 
to have those lands for themselves.
    The idea is that the bill asks or requires the Governor or 
the State board, the land board, superintendent, and the 
Secretary of the Interior to come together with an appraisal. 
If they cannot find one, they will come up with an intermediate 
appraiser to come up with a value, and then figure out what 
method they will use to make the exchange, whether it be 
royalties, cash, or lands.
    So we are very excited about that, and of course 
Yellowstone and Grand Teton are two of the most highly visited 
parks in the United States, and one we need to take care of.
    So thank you for holding this hearing. We appreciate very 
much all of you being here, and Mr. Arnold, again, thank you.
    Mr. Arnold. Thank you.
    Senator Akaka. Thank you, Senator Thomas, for being so 
faithful here, and thank you to all the witnesses that have 
appeared today before this committee. Again, I want to thank 
you folks from Hawaii for making such a long trip. Maybe some 
day you will tell us how long it was.
    Senator Thomas. That is further than Wyoming, is it not?
    Senator Akaka. A little bit, yes.
    [Laughter.]
    Senator Akaka. I want to thank Ron Arnold, too, and Audrey 
Rust very much, and I would like to announce that the hearing 
record will remain open for a week if anyone wants to submit 
additional comments on any of these bills.
    So there being no further questions or comments, I would 
like to again say thank you and to conclude this hearing today. 
The hearing is adjourned.
    [Whereupon, at 4:08 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                                          County of Hawaii,
                                            Hilo, HI, May 16, 2001.
Hon. Daniel Akaka,
U.S. Senate, Hart Senate Office Bldg., Washington, DC.
    Dear Senator Akaka: The purpose of this letter is to request that 
you seek Congressional authorization to expand the boundaries of Pu'u 
Honua O Honaunau National Park.
    As I am sure you know, our local media have given a good deal of 
attention to a development proposed on 800 acres adjacent to Pu'u Honua 
O Honaunau. The community, particularly the Hawaiian community, has 
been outspoken in its desire to see this acreage preserved and the park 
enhanced. Numerous historic sites have been identified or, this 
acreage, some or all related to the ancient Hawaiian village of 
Ki'ilae.
    My staff has spoken with Ms. Geri Bell, Park Superintendent, and 
she has said that at least 238 acres (out of the 800) are closely 
linked to the park and associated with the village of Ki'ilae. 
Moreover, she has indicated that the owner of the land would willingly 
sell the 238 acres to the National Park. The next step is Congressional 
authorization.
    The acquisition could be 238 acres, 800 acres, or something in 
between, and I would leave that determination to the experts to decide. 
However, your support for acquisition of at least the smaller portion 
would allow for a valuable addition to the park and assure preservation 
of an important part of our ancient Hawaiian heritage.
    I fully support the expansion of the park by acquisition of this 
acreage, and hope you will let me know if there is any way in which I 
can be of assistance.
    A similar letter has been sent to the other members of our 
Congressional delegation.
            Aloha,
                                                  Harry Kim
                                                             Mayor.
                                 ______
                                 
                                  County of Hawaii,
                                            County Council,
                                          Hilo, HI, March 19, 2001.
Hon. Daniel Akaka,
U.S. Senate, Hart Senate Office Building, Washington, DC.
    Dear Senator Akaka: Mahalo for your aloha during my recent visit 
with you on March 6, 2001. I was gratified by your interest in the 
expansion of Pu'u Honua O Honaunau National Park. I agree with you that 
public support for this expansion of Pu'u Honua O Honauriau National 
Park is an important factor to examine. From my own conversations with 
individuals and groups throughout my district, I have gathered the 
clear impression that the people of this area want this expansion to 
occur.
    I would like to review the situation that I spoke with you about at 
our recent meeting. Pu'u Honua O Honaunau National Park has a singular 
opportunity to add irreplaceable culturally and historically important 
lands to its holdings. The park officials are currently negotiating to 
expand its holdings by adding roughly 240 acres of adjoining land to 
its park area. This adjoining land is one of the only undisturbed 
burial grounds and cultural resources in Kona and perhaps this island. 
The recently nationally designated Ala Kahakai Trail passes through 
this parcel.
    I spoke with Pu'u Honua O Honaunau National Park Superintendent 
Geri Bell about park expansion to the limits of the 800 acre CMI 
project. She responded that she would be very happy to have the entire 
parcel included within the park's borders, but had thought it was not a 
real possibility. When I explained to her that the Trust For Public 
Lands was interested in this goal and that there are others willing to 
help make this a reality, she expressed happiness and assured me that 
she would be happy indeed to include the entire parcel in the park and 
would work together with those willing to secure this outcome. She said 
she would be writing a formal request to expand the boundaries of Pu'u 
Honua O Honaunau Park to her superiors in the National Park Service.
    Survivors of the MacCandless Ranch, that owned this parcel, have 
formed a partnership with a developer. That company has started 
bulldozing areas that include graves and cultural sites to make way for 
a residential subdivision. The park is negotiating for 240 acres of 
this 800-acre parcel. The developer knows this particular 240 acres is 
too sensitive and covered with cultural resources to successfully 
develop in the face of local opposition. I attended a public meeting 
held at Pu'u Honua O Honaunau National Park in February 2001 concerning 
this proposal. All residents expressed the opinion that this whole 800-
acre parcel should be preserved and added to the National Park if at 
all possible. Residents and cultural practitioners provided witness to 
the fact that bulldozers had uncovered and disturbed known gravesites. 
The archeological survey revealed the entire area of 800 acres was 
covered with known sites of significance. Residents were outraged that 
their ancestors' graves were being treated in this fashion despite 
strict guidelines established by state law and the Hawaiian Burial 
Council. The Trust For Public Lands has expressed interest in working 
with residents and park officials to obtain this 800 acre tract for 
inclusion into Pu'u Honua O Honaunau National Park.
    I feel that the residents and voters of this area have stated very 
clearly that they support an intact culture and environment over a few 
short-term environmentally destructive jobs. The people of my district 
know the value of preserving this intact cultural and environmental 
resource. They have elected me twice knowing that this is my outlook 
and goal. What Hawai'i has in this district is more valuable to our 
culture, economy, and future than a new residential subdivision.
    Please support legislation expanding the borders of Pu'u Honua O 
Honaunau National Park and pass legislation enabling the purchase of 
these 800 acres for inclusion into the national park system. By adding 
to this park now, I am sure that we will have preserved these remaining 
cultural and environmental resources that are perhaps more important 
than any other lands within the state of Hawai'i.
    Thank you for your consideration of this matter and the warm 
welcome my husband and I received at your office.
            With aloha,
                                            Julie Jacobson,
                                                      Councilwoman.
                                 ______
                                 
                   National Parks Conservation Association,
                                     Washington, DC, July 26, 2001.
Hon. Daniel K. Akaka,
Chairman, National Parks, Historic Preservation and Recreation 
        Subcommittee, Energy and Natural Resources Committee, U.S. 
        Senate, Washington, DC.
    Dear Chairman Akaka: The National Parks Conservation Association 
(NPCA), the only private, nonprofit advocacy organization dedicated 
solely to protecting, preserving, and enhancing the National Park 
System, appreciates the opportunity to comment on S. 1105, legislation 
to provide for the expeditious completion of the acquisition of State 
of Wyoming lands within the boundaries of the Grand Teton National 
Park.
    NPCA supports the overall purpose of the Grand Teton National Park 
Land Exchange Act, to acquire State lands within the boundaries of the 
Grand Teton National Park. However, we are seriously concerned with the 
potential impact of Sec. 5 of the bill, which provides for an exchange 
of federal land for the state lands inside the park.
    NPCA is concerned that the bill does not identify which federal 
lands might be considered for exchange with the state. This provision 
could lead to the disposition of environmentally sensitive lands, 
including lands near or adjacent to national parks or national forests. 
Subsequent development of the traded lands could negatively impact 
nearby federal property.
    NPCA recognizes that some federal lands may be deemed surplus and 
suitable for disposal or exchange. There is an established process for 
making such a determination that should be followed in all cases where 
federal land exchanges are considered.
    In general, however, NPCA rejects the suggestion that the 
acquisition of additional federal lands necessitates the disposition of 
other federal lands. Protected federal land is one of our nation's 
greatest assets and must not be disposed of without great deliberation.
    S. 1105 has the real potential to benefit both the American public 
by reducing inholdings and protecting lands from potential development 
in Grand Teton National Park, as well as to benefit the State of 
Wyoming by raising needed funds for public schools.
    We suggest that the bill be amended to require the transfer of 
Federal assets, other than land, to the state. Such assets could 
include mineral royalties that would otherwise flow to the Federal 
Treasury.
    We remain committed to working with the author of the bill, Senator 
Thomas, and the Committee to arrive at legislation that will be a win-
win for the park and the people of Wyoming.
    Thank you.
                                             Kevin Collins,
                               Acting Director, Government Affairs.
                                 ______
                                 
 Statement of the Greater Yellowstone Coalition on S. 1105, the Grand 
                 Teton National Park Land Exchange Act

    We would like to thank Senator Thomas for his leadership in 
introducing this legislation, and to thank Senator Enzi for co-
sponsoring this important measure.
    Grand Teton National Park was originally set aside by an act of 
Congress in 1929, and included only the Teton Mountain Range and the 
glacial lakes at the base of the mountains. Then in 1943 Franklin 
Roosevelt established Jackson Hole National Monument through 
presidential proclamation, which combined Teton National Forest acreage 
and other federal properties. On September 14, 1950, the original 1929 
Park, the 1943 National Monument, and a 35,000-acre donation by John D. 
Rockefeller, Jr. were united into the present Grand Teton National 
Park.
    The Park covers over 300,000 acres and includes the Teton Mountain 
Range and Jackson Hole, a mountain valley. First time visitors to the 
Park are taken by the Grand Teton, which rises to 13,770 feet above sea 
level. Nearly a dozen other Teton peaks reach above 12,000 feet 
elevation, supporting a dozen mountain glaciers. According to the 
National Park Service, these are the youngest of the mountains in the 
Rocky Mountain system.
    While the towering peaks capture the attention of visitors, it is 
the valley portion of the Park that provides important wildlife 
habitat, from riparian areas bordering rivers and streams, to sagebrush 
flats, lodgepole pine and spruce forests. The wide range of plant 
communities create habitat for a variety of animals.
    The State of Wyoming owns approximately 1,400 acres that are 
located primarily on the valley floor within the boundaries of the 
Park. These lands were granted to Wyoming upon statehoodin 1890, for 
the purpose of providing for the State's educational system. However, 
the Wyoming's school trust has realized little financial benefit from 
the grant, as it is extremely difficult to develop at these sensitive 
locations. Further, development of these lands would threaten the 
national interest in protecting the Park.
    S. 1105 would exchange these state lands for mineral royalties, 
appropriated dollars, or unidentified federal lands. This forward 
thinking action would protect key lands within Grand Teton National 
Park to protect the Park and important wildlife wintering and migration 
corridors. The legislation would also allow the State of Wyoming to 
gain additional benefits from State lands in the area.
    The Greater Yellowstone Coalition strongly supports the exchange of 
these state lands out of the Park. This would be a tremendous step for 
protecting Park values. We also believe it is fair to compensate the 
State of Wyoming for these inholdings. The legislation benefits both 
the national interest by protecting the integrity of one of our best 
national parks, and the State of Wyoming's interest by providing 
funding for the State's education system. This land exchange can truly 
benefit all interests involved, the environment, the public and 
education.
    We are, however, concerned with the possible unintended 
consequences of this bill as drafted.
    Section 5 states the Secretary of the Interior shall provide the 
State of Wyoming with Federal lands or assets as compensation for the 
State lands acquired by the United States government. We are concerned 
that, although it is not the sponsor's intention, this provision of 
unspecified land could lead to the disposition of environmentally 
sensitive tracts of federal land that could then be developed. Further, 
the legislation does not provide any limits on the pool of federal land 
from which the State could make selections. For example, such lands are 
not limited to the State of Wyoming. Nor is there a limit on whether 
lands could be taken from National Parks, for example, or perhaps from 
National Forests.
    This problem can be avoided by not offering the State real property 
as compensation. The Section 5 language currently provides that the 
Secretary of the Interior ``shall exchange Federal lands of equal value 
or other Federal assets of equal value, or a combination of both, for 
the State lands.'' We suggest this language should be amended to read 
``shall exchange Federal assets of equal value, exclusive of real 
property, for the State lands.''
    We believe it would be advantageous to all interests if the State 
of Wyoming receives as compensation for the state parcels royalty 
payments due the United States from existing development of energy 
tracts on federal lands. The State would receive payments until it is 
fully compensated, then the royalty rights would revert back to the 
United States.
    The advantages of exchanging the state land for fuels royalties are 
several. First, appraisals are only required on the State lands. 
Second, there is no environmental downside because the possibility of 
the State of Wyoming acquiring sensitive lands is eliminated. And 
finally, the State receives direct revenues to use for its education 
system, as opposed to more land that must be developed before any 
benefit is derived.
    Although it is not our preference, the legislation could also be 
amended by limiting the State's selection to property that has been 
identified for disposal through agreement by all of the interested 
parties. If this route is selected, we believe it would be prudent to 
adhere to past models on this issue. For example, with the land 
exchange legislation for the Grand Staircase Escalante National 
Monument in the State of Utah, the environmental community was involved 
in determining which federal lands were suitable for disposal, and 
these lands were then specifically identified in the legislation.
    We also note that Section 4 allows the Governor to petition to 
Federal Court in the event of a dispute over valuation of exchanged 
lands, but the same option is not provided to the Secretary. There 
should be parallel opportunities for resolving potential disputes.
    We believe that with resolution of these issues, the Grand Teton 
National Park Land Exchange Act would be important and beneficial 
legislation both for our National Park System and the State of Wyoming. 
We appreciate the collaborative and cooperative efforts to see the 
success of Senator Thomas' commitment to what can be a win for all 
interests. Improving this bill will improve that success and strengthen 
the Grand Teton National Park far into the future.
                                 ______
                                 
                          RESOLUTION N0. 64597

   Resolution in Support of H.R. 1953 (Lantos) and S. 941 (Feinstein-
      Boxer) Golden Gate National Recreational Boundary Adjustment
    RESOLVED, by the Board of Supervisors of the County of San Mateo, 
State of California, that
    WHEREAS, the Golden Gate National Recreation Area (GGNRA) was 
created by an act of Congress in 1972 to ``preserve for public use and 
enjoyment certain areas of Marin and San Francisco counties . . . 
possessing outstanding natural, historic, scenic and recreational 
values;'' and in 1980 federal legislation was enacted to expand the 
boundary of the GGNRA to include significant lands in San Mateo County 
including the 1,100-acre Sweeney Ridge property;
    WHEREAS, the GGNRA consists of 74,000 acres of land and water, 
approximately 28 miles of coastline and specific sites including 
Alcatraz, Marin Headlands, Fort Funston, Fort Mason, Muir Woods, Fort 
Point National Historic Site and now the San Francisco Presidio; it 
offers diverse urban and rural lands that are regarded as nationally 
significant cultural and natural resources;
    WHEREAS, House Resolution 1953 (Lantos) and Senate 941 (Feinstein 
and Boxer) would expand and adjust the boundary of the Golden Gate 
National Recreational Area (GGNRA) to include an area of about 5,000 
acres of undeveloped land known as the Devil's Slide area and the 
Rancho Corral de Tierra located on the coast in San Mateo County;
    WHEREAS, the lands proposed to be added to the GGNRA under H.R. 
1953 and S. 941 according to a comprehensive study completed by the 
Peninsula Open Space Trust in consultation with the National Park 
Service staff, would provide a logical southern entry to the GGNRA and 
protect an unusually large piece of significant scenic and ecological 
resource firmly linked to existing parkland;
    WHEREAS, the Devil's Slide properties will become landlocked when 
the tunnel is built and the old Highway One alignment at Devil's Slide 
is proposed to be kept as a trail for nonmotorized use as it will be 
deemed excess;

Regularly passed and adopted the 24th day of July, 2001.

    AYES and in favor of said resolution.

    Supervisors: Mark Church, Jerry Hill, Richard S. Gordon, Rose 
Jacobs Gibson, Michael D. Nevin.

    NOES and against said resolution:

    Supervisors: None.
    Absent Supervisors: None.
                                   Michael D. Nevin,
                                           President, Board of 
                                               Supervisors,
                                           County of San Mateo,
                                           State of California.

                        Certificate of Delivery

                    (Government Code section 25103)

    I certify that a copy of the original resolution filed in the 
Office of the Clerk of the Board of Supervisors of San Mateo County has 
been delivered to the President of the Board of Supervisors.

                                   Ashnita Narayan, Deputy,
                                           Clerk of the Board of 
                                               Supervisors.

</pre></body></html>
